<html>
<title> - DHS INFORMATION TECHNOLOGY: HOW EFFECTIVELY HAS DHS HARNESSED IT TO SECURE OUR BORDERS AND UPHOLD IMMIGRATION LAWS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  DHS INFORMATION TECHNOLOGY: HOW EFFECTIVELY HAS DHS HARNESSED IT TO 

            SECURE OUR BORDERS AND UPHOLD IMMIGRATION LAWS?
=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                       AND MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2013

                               __________

                            Serial No. 113-7

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
82-581                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Keith J. Rothfus, Pennsylvania       Eric Swalwell, California
Richard Hudson, North Carolina
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Keith J. Rothfus, Pennsylvania       Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
                      Ryan Consaul, Staff Director
                   Deborah Jordan, Subcommittee Clerk
                  Tamla Scott, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency............................     1
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency......................................     3

                               Witnesses

Ms. Margaret H. Graves, Deputy Chief Information Officer, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Charles K. Edwards, Deputy Inspector General, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................    23
  Prepared Statement.............................................    24

                                Appendix

Questions From Chairman Jeff Duncan for Margaret H. Graves.......    39
Question From Honorable Richard Hudson for Margaret H. Graves....    39
Question From Honorable Beto O'Rourke for Margaret H. Graves.....    39
Questions From Chairman Jeff Duncan for David A. Powner..........    39
Question From Honorable Richard Hudson for David A. Powner.......    40
Questions From Chairman Jeff Duncan for Charles K. Edwards.......    40


  DHS INFORMATION TECHNOLOGY: HOW EFFECTIVELY HAS DHS HARNESSED IT TO 
            SECURE OUR BORDERS AND UPHOLD IMMIGRATION LAWS?

                              ----------                              


                        Tuesday, March 19, 2013

             U.S. House of Representatives,
          Subcommittee on Oversight and Management 
                                        Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 311, Cannon House Office Building, Hon. Jeff Duncan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Duncan, McCaul, Broun, Rothfus, 
Hudson, Daines, Barber, Thompson, Payne, and O'Rourke.
    Mr. Duncan. The Committee on Homeland Security Subcommittee 
on Oversight and Management Efficiency will come to order. The 
purpose of this hearing is to closely examine the Department's 
critical information technology systems and their daily 
operations protecting the Nation's borders, preventing 
terrorists from entering the United States, and facilitating 
the legitimate flow of people and trade.
    Before I begin my opening statement I would like to express 
the subcommittee's frustration with the DHS over not providing 
its written testimony on time. This is unfair to the Members 
and other witnesses. We expect the Department to provide their 
written statement in accordance with the committee rules moving 
forward.
    I and other subcommittee Members are also disappointed that 
DHS's chief information officer, Mr. Richard Spires, was unable 
to testify today on these important issues. Mr. Spires has been 
outspoken in improving IT within DHS and ensuring transparency 
and meaningful oversight. We look forward to hearing from him 
on these issues at a future date.
    Now I recognize myself for an opening statement. Before I 
do, I will mention that we do have votes at 2:15, so we are 
going to try to get through as much as we can before Members 
are required to leave.
    The component agencies that make up the Department of 
Homeland Security rely heavily on information technology, or 
IT, to perform a wide range of missions. IT is especially 
important with regard to border security and immigration 
enforcement.
    With one of the Federal Government's largest information 
technology budgets, DHS's component agencies such as Customs 
and Border Protection, Immigration and Customs Enforcement, and 
U.S. Citizenship and Immigration Services rely on critical IT 
systems and their daily operations to protect the Nation's 
borders and prevent terrorists from entering the United States, 
and facilitate the legitimate flow of people and trade into and 
out of our country.
    Having been down on the border at our ports of entry, I 
recognize the integral role IT infrastructure plays in the 
ability of ICE and CBP agents to carry out their missions. In 
fiscal year 2012 the Department of Homeland Security planned to 
spend nearly $5.6 billion in IT investments, $1.7 billion of 
which is for programs the Department considers to be major 
investments in CBP, ICE, and USCIS.
    A few of the examples of these mission-critical programs 
related to border security and immigration enforcement include 
CBP's automated commercial environment and international trade 
data system, which will replace existing technology and 
increase efficiencies by serving as a central data collection 
system for Federal agencies needing access to international 
trade data in a secure, paper-free Web environment.
    Similarly, both CBP and ICE are working on the respective 
portions of the Traveler Enforcement Compliance System, or TECS 
Modernization program, which will be an important upgrade to a 
legacy system developed in the 1980s by the U.S. Customs 
Service to support inspections and investigations. A similar 
effort is ICE's Detention and Removal Operations Modernization, 
which will significantly upgrade IT capabilities to support the 
efficient detention and removal of aliens who are in the 
custody of ICE.
    Given the size of the Department's investment in IT, 
effective management and oversight of IT programs and 
expenditures is critical to ensure DHS is using taxpayer money 
efficiently and holding programs accountable for agreed-upon 
deliverables. Despite some successes by the Department and data 
center in network consolidation, as well as cloud-based service 
offerings and establishing IT centers of excellence, GAO and 
DHS Inspector General have identified numerous cases where the 
Department has yet to reduce cost and duplication through 
technology-based integration and modernization.
    GAO reported in September 2012 that DHS's 68 major IT 
investments, roughly one-third, had not fully met their cost or 
scheduled targets. These delays can mean border agents will 
have to make due with legacy IT systems for longer periods. 
Similarly, the DHS Office of Inspector General has identified 
information technology management as a major challenge facing 
the Department, including attempts to create a unified 
information technology infrastructure for effective integration 
and agency-wide management of information technology assets and 
programs.
    At the component level, the DHS Inspector General 
identified aging IT infrastructure, interoperability, and 
functionality at the CBP as specific challenges creating an 
environment difficult to support CBP's responsibility to secure 
the border. For instance, the IG reported that in some 
instances Border Patrol staff cannot communicate seamlessly 
from analog to digital platforms with Federal, State, and local 
partners in all sections of the country.
    I personally find it alarming that after a decade after the 
Department was stood up and billions of dollars poured into 
securing our borders, preventing another September 11, that CBP 
staff in one location might not be able to reliably share 
information not only with local law enforcement officers, but 
also with other agencies within the DHS apparatus.
    Similarly, a November 2011 DHS IG report details struggles 
by USCIS to transform its fragmented paper-based business 
process to a flexible, efficient, and electronic adjudication 
service. However, this transformation has yet to be fully 
implemented because of delays in strategy and system 
requirements, which ended up costing American taxpayers 
hundreds of millions of dollars. As a result, USCIS missed an 
opportunity to process immigration benefits more efficiently, 
combat identify fraud, and share critical information necessary 
to quickly identify criminals and possible terrorists.
    I am happy to welcome our witnesses to the hearing today 
and look forward to hearing about the steps taken by the 
Department to develop an agile approach to IG development at 
these critical agencies and progress in eliminating 
duplication, consolidating existing technology, and improving 
the overall management of those IT projects of CBP, ICE, and 
USCIS, which will enhance DHS's mission of securing the border 
while upholding immigration laws.
    It is absolutely critical that in a time of financial belt-
tightening, particularly as the Congress begins to look at 
addressing the issue of comprehensive immigration reform, the 
DHS be able to meet IT investments and capabilities on time and 
on budget without posing a risk to the Department's ability to 
fulfill its mission of securing homeland.
    I will just note that the total cost for the IT systems was 
projected at--I am turning to the number here, $5.6 billion. 
The complete St. Elizabeths site that we visited last Friday is 
budgeted at $4 billion. So, the IT systems is a billion--a 
little over a billion and a half more than the complete St. 
Elizabeths site. That is alarming to me at the cost. So I 
wanted to bring that up.
    The Chairman will now recognize the Ranking Minority Member 
of the subcommittee, the gentleman from Arizona, Mr. Barber, 
for any opening statement he may have.
    Mr. Barber. Well, thank you, Mr. Chairman.
    Thank you to the witnesses for being with us today.
    Each year the Department of Homeland Security spends 
approximately 15 percent of its total budget on information 
technology systems. As the Chairman noted, in 2012 this was 
approximately $6 billion. Given the significance of this 
investment, it is critical that we are holding this hearing 
today in an effort to carry out our oversight functions and 
responsibilities for these very costly systems.
    While the GAO and the Department of Homeland Security 
Officer of the Inspector General have generally found that most 
of the major IT investments by the Department are sound and are 
providing DHS the necessary tools to carry out its mission, it 
is clear that several IT projects are not going as promised. 
This is especially true of the technologies that have been used 
or attempted to be used to secure the border.
    In my home district in southern Arizona, I have seen first-
hand the extreme waste of taxpayer money on programs like 
SBInet, a program that was designed without input from the 
people on the ground who know what is best in that community in 
that area. It seemed promising at the time. Yet at the ultimate 
cost of over $1.5 billion there has been little or no return on 
our investment. To my dismay, I would have to say the SBI 
successor, according to the GAO, the Arizona Border Technology 
Plan, appears to face similar challenges as SBInet and looks 
like it might be more of the same.
    These are two examples that show that the Department must 
do more to improve its IT structure, governance, and the manner 
in which it develops IT systems. Hopefully recent changes to 
how IT decisions are made at the Department and managed will 
yield better results and budgetary savings, especially as it 
relates to border security.
    Twenty-four hours a day, 365 days a year, as you know, the 
men and women of the Customs and Border Patrol and Immigration 
and Customs Enforcement put their lives on the line in very 
rugged environments to secure our borders and to prevent 
illegal trafficking and smuggling from across the line. If 
there are technology-based solutions that can help them fulfill 
their mission, it is essential that the Department and Congress 
provide them with those resources.
    However, we must ensure that the technology we deploy is 
proven, is cost-effective, trustworthy, and meets the needs of 
those on the front line. I will repeat that when the 
implemented SBInet contract specifically prohibited the 
contractor from talking to agents on the ground, that can't 
happen again.
    We must ask the end-user, No. 1, is this technology that is 
needed? No. 2, is this technology that would actually work in a 
border environment? When developing new IT systems I encourage 
the Department to utilize the services of its own Science and 
Technology Directorate in addition to leveraging the skills and 
knowledge that can be found in our Nation's universities.
    In 2008 the University of Arizona became the co-lead of a 
research university team that have partnered to form the Center 
for Excellence of Border Security and Immigration. This 
partnership has yielded numerous successful endeavors that can 
stem the flow of drugs across the Southwest Border, aiding and 
protecting deception and malicious intent by those seeking to 
enter the United States and improve the effectiveness of our 
checkpoints.
    As we seek to improve and harness new border-related IT 
systems, I urge the Department to continue to utilize the 
University of Arizona Center of Excellence and also engage 
ranchers and those living along the border and the working 
agents who work the border for first-hand information accounts 
of what works and what doesn't work.
    I want to echo here the Chairman's comments about 
telecommunications. It became painfully clear to me in 2010 
when I was district director to Congresswoman Giffords that we 
have a long way to go to ensure that the agents can communicate 
with each other and other law enforcement departments. The 
death of Rob Prince during that time was an example of how poor 
the telecommunications is, and I fear they may be not much 
better today.
    I will encourage the Department to engage with Boeing and 
others who have worked on projects to secure the border in what 
has worked and what has not. In closing, let me just say this: 
That while the use of technology to secure our border is needed 
and a sign of the times, nothing can replace actual boots on 
the ground.
    You know I am very concerned, even though it is not the 
subject of our hearing today, that as a result of the budget 
sequestration issue we are now going to see less overtime, less 
time on the job for Border Patrol agents, the people who 
actually secure our border day-in and day-out. We have to make 
sure that we do not allow the progress we have made to be 
degraded by these budget cuts. As we evaluate technology on the 
border, which comes at a high financial cost, I would caution 
us to ensure that the Department is not exceeding IT cost 
estimates at the risk of putting Border Patrol agents out of 
work.
    Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. Thank the Ranking Member. The other Members of 
the subcommittee are reminded that opening statements may be 
submitted for the record.
    We are pleased to have a very distinguished panel of 
witnesses before us today on this important topic. What I will 
do is I will introduce each witness and then we will recognize 
you.
    The first witness is Ms. Margie Graves. She is the deputy 
chief information officer for the Department of Homeland 
Security. In this capacity, Ms. Graves oversees the 
Department's IT portfolio of about $6 billion in IT programs.
    Ms. Graves manages the operation of the Office of Chief 
Information Officer, which covers functional areas of applied 
technology enterprise, architecture, data management, IT, 
security infrastructure, operations, IT accessibility, budget, 
and acquisition. Prior to her selection as deputy CIO in 2008, 
Ms. Graves held numerous senior IT positions in the Department. 
Ms. Graves also has 20 years' experience in the management 
consulting industry.
    Mr. David Powner--am I pronouncing that right, Powner? 
Okay--is the director of information technology, IT management 
issues at the Government Accountability Office or GAO. At GAO, 
Mr. Powner's work focuses on system development and 
acquisition, IT governance, IT reform initiatives and major IT 
modernization efforts. He also has led work on cyber critical 
infrastructure protection. During his time in the private 
sector, Mr. Powner held several executive-level positions in 
the telecommunications industry.
    Mr. Charles Edwards is the deputy inspector general of the 
Department of Homeland Security. Mr. Edwards is the head of the 
Office of Inspector General, a role he first obtained when 
named acting inspector general in February 2011. Mr. Edwards 
has over 20 years' experience in the Federal Government, and 
has held leadership positions at several Federal agencies 
including TSA, the United States Postal Service's Office of 
Inspector General, and the United States Postal Service.
    So, I thank all of you for being here today. The Chairman 
will now recognize Ms. Graves to testify.

   STATEMENT OF MARGARET H. GRAVES, DEPUTY CHIEF INFORMATION 
         OFFICER, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Graves. Chairman Duncan, Ranking Member Barber, and 
Members of the subcommittee, thank you, and good afternoon. As 
deputy CIO at DHS I oversee an IT portfolio $5.4 billion in 
programs and manage OCIO operations. This has given me valuable 
insight and perspective to share with you on the efforts that 
we are making at DHS to ensure effective delivery of IT 
programs to support the missions of DHS.
    When the DHS OCIO evaluates the health of an IT program we 
focus primarily on three areas.
    The first area is whether a program has correct management 
structure and skilled and experienced individuals to fill key 
program management roles. It is critical to ensure that every 
large IT program has a qualified program manager or PMO, and 
additional core positions based on its level of complexity. The 
skills and experience of the staff and the PMO are the most 
heavily-weighted criteria in how we evaluate our IT programs.
    The second area is proper alignment of key stakeholders and 
oversight to help address issues that may arise. Even the best 
program manager will have challenges if the governance model 
does not effectively support and provide guidance to the 
program.
    Within DHS we have implemented a three-tiered governance 
structure. At the enterprise level we have a governance board 
known as the Acquisitions Review Board or ARB, which 
adjudicates major acquisitions decisions. In addition, 
portfolio steering committees and executive steering 
committees, or ESCs are chartered by the ARB and provide 
program governance.
    The third and final area is whether a program is leveraging 
program, project, and technical best practices to minimize 
program risk and therefore maximize its chance for success. 
Within DHS we are implementing such a model under which we call 
our acquisition and program management Centers of Excellence. 
These Centers of Excellence provide a number of services to 
programs, including sharing best practices and materials, 
training programs and mentoring, and expert in subject matter 
support.
    DHS IT programs are now governed by these principles. As 
examples I would like to highlight four of our programs.
    First example is CBP's Automated Commercial Environment or 
ACE, which is modernizing how CBP secures U.S. borders, speeds 
the flow of legitimate shipments and targets illicit goods. In 
2010 the program was placed on OMB's list of troubled Federal 
IT projects.
    Since that time the PMO addressed skill gaps and embedded 
business expertise. The governance model has been strengthened, 
and the program has worked closely with a number of COEs to 
gain expertise. Strong program governance and organizational 
changes, active stakeholder engagement and support, and 
implementing agile development and sound funding strategies 
have placed the program on the right course.
    My second example is CBP's TECS Modernization which is a 
key border enforcement system supporting the screening of 
travelers entering the United States and the screening 
requirements at other Federal agencies that use the information 
for law enforcement and benefit purposes. TECS Mod, which is 
modernized incrementally with five projects that focus on major 
functional areas, and is on a schedule to be complete by the 
end of fiscal year 2015.
    The third program I would like to highlight is CIS's 
Electronic Immigration System or ELIS. The program was put in 
place to transition the agency from a fragmented, paper-based 
operational environment to an integrated, paperless, electronic 
environment. Unfortunately there were difficulties on the first 
release.
    But under the direction of the ARB we set up an ESC to 
oversee the program, participate in test stat review in 
conjunction with the Federal CIO, created a life-cycle cost 
estimate and an integrated master schedule, and facilitated the 
program's migration to DHS provided cloud services. Since then, 
CIS successfully developed the technology architecture to 
better support agile development and has delivered two 
additional ELIS projection release, which should enable CIS to 
stay within estimated cost and schedule.
    The final program I would like to highlight is ICE's 
Detention and Removal Operations Modernization or DROM. It was 
initiated in late 2006 to improve the operational effectiveness 
of enforcement and removal operations, or ERO, and to 
strengthen the alignment of the ERO mission with the Secured 
Border Initiative. Despite technical and operational 
challenges, DROM is targeted to move into full sustainment by 
fiscal year 2014, providing full operational capability while 
coming in under budget.
    At DHS we are working hard to mature our ability to deliver 
new capabilities by improving the skills of our staff to manage 
programs, effectively overseeing these programs and harnessing 
the best practices in how we run those programs, ultimately 
increasing our ability to support the homeland security 
enterprise. Thank you. I am pleased to address your questions.
    [The prepared statement of Ms. Graves follows:]
                Prepared Statement of Margaret H. Graves
                             March 19, 2013
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, thank you and good afternoon. Today I will discuss 
efforts we are making at headquarters and across the components at the 
Department of Homeland Security (DHS) to ensure effective delivery of 
IT programs to support the missions of DHS. My experience in public-
sector large-scale IT organizations has given me unique insight in how 
to effectively leverage IT to support the mission and business needs of 
a large organization.
    I will first describe what DHS is doing as an enterprise to support 
delivery of mission capabilities, with particular emphasis on how we 
are working to systemically improve our acquisition and program 
management capabilities to ensure successful delivery of programs. 
Second, I will highlight four major programs that support our border 
security and immigration missions, namely the United States Custom and 
Border Protection's (CBP) TECS Modernization, CBP's Automated 
Commercial Environment (ACE), U.S. Citizenship and Immigration 
Service's (USCIS) Transformation, and U.S. Immigration and Custom 
Enforcement's (ICE) Detention and Removal Operations Modernization 
(DROM).
       improving dhs's ability to deliver successful it programs
    When I evaluate the health of an IT program, I focus on three 
areas: Whether a program has the correct management structure and the 
proper set of skilled and experienced individuals to fill key program 
management roles; proper alignment of key stakeholders and oversight to 
help address issues that may arise; and whether the program is 
leveraging program, project, and technical best practices to minimize 
program risk and therefore maximize its chance for success. It is 
important to note during this period of fiscal austerity that all three 
contribute directly to a program's ability to deliver as efficiently 
and cost-effectively as possible. Below I provide more detail on each 
of these three key areas, with particular focus on how DHS is, as an 
enterprise, working to mature our institutional capability in each.
Program Management Structure, Skills, and Experience
    Programs are not successful when they lack experience and skills in 
critical program management positions or a solid program management 
office (PMO). For large, complex IT programs, having a program manager 
(PM) who has successfully managed and delivered numerous IT programs is 
vital.
    Large, complex IT programs vary greatly, so there is not one model 
that fits every program. While every program should have a qualified 
program manager, additional positions vary based on its complexity and 
should be considered on a case-by-case basis. The following positions, 
however, are typically core, and programs lacking solid individuals 
filling these positions at higher risk: Systems architect; data 
architect; requirements manager; development and integration manager; 
test manager; configuration manager; operations manager; contracting 
officer; and contracting officer's representative.
    In addition to the above core positions, when organizations embark 
on large IT programs, it is critical to ensure the right business or 
mission owner involvement. It is necessary to have full-time 
representatives of the business who can not only successfully work 
within the program to define requirements of the system, but also help 
the PMO make the trade-off decisions that are a constant in a program. 
In assessing a program, I look for individuals who are steeped in the 
current process end-to-end, who have true credibility with senior 
management, and who demonstrate flexibility to deal with unending 
change as a program unfolds and matures. While we often need strong 
contractor teams to help execute large complex programs, successful 
PMOs are staffed with strong Government staff who can provide the 
leadership and oversight necessary to direct the work. It is essential 
that each program find the approximate mix of Federal and contractor 
personnel to staff their PMO and ensure the PMO is fully integrated.
    DHS is taking aggressive steps to ensure that we can properly staff 
our major IT programs with skilled and experienced personnel. We have a 
number of training programs, most notably a PM certification course. In 
addition to a standard PM certification, we have additional specialty 
courses for PMs that run IT programs. Further, we have course tracks in 
other key skill areas as outlined above, to include requirements 
engineering, systems engineering, and test and evaluation 
methodologies. Finally, we have built into our program evaluation 
criteria the recognition that the PMO is key to success. The skills and 
experience of the staff in the PMO is the most heavily-weighted 
criteria in how we evaluate our IT programs.
Program Governance
    Even the best program manager will have challenges if the 
governance model does not work. Governance drives alignment amongst key 
decision makers in an organization. We have heard for decades that IT 
programs fail because of ill-defined requirements or poorly-managed 
requirements scope throughout the life cycle of a program. While true, 
this is a symptom of a more fundamental underlying cause: The inability 
for all key stakeholders in a program to be ``on the same page'' in 
defining desired outcomes and approaches to meet those outcomes.
    Change is inevitable in all IT programs, so achieving such 
alignment is not a one-time event occurring at the start of a program. 
Alignment is an on-going process that is critical throughout an 
investment's strategic planning, design, and development, as well as 
its implementation; hence, governance must be viewed as a full life-
cycle process. Sometimes the change is significant, making on-going 
alignment even more crucial to successfully driving the promised Return 
on Investment (ROI) and ensuring accountability. Further, for complex 
IT systems, there are at least a half-dozen stakeholder organizations 
that must be aligned, to include the strategy organization, business or 
mission owner of the system, IT, finance, procurement, security, and 
privacy. Ensuring all key stakeholders are involved in key decisions is 
an essential element to assuring genuine alignment.
    Based on my experience, establishing a strong, active program 
governance board is required to ensure such alignment. Program 
governance boards provide guidance, decision making, and oversight of 
one or more programs. The function of the program governance board is 
not to usurp the authorities of the PM, but rather to provide a forum 
by which the PM can bring key issues and trade-off decisions to an 
informed, empowered body that has a vested interest in that program's 
success and that views the PM as a trusted advisor and true subject-
matter specialist. In today's environment of more modular and agile 
development, a program in design or development should have a program 
governance board that meets no less than monthly, and in some cases 
weekly, depending on the type of program and life-cycle stage of the 
investment. Not only does an active program governance board support 
accountability, it also fosters transparency.
    Within DHS, we have developed a management directive and are 
maturing our program governance processes. At the enterprise level, we 
have a governance board known as the Acquisition Review Board (ARB), 
chaired by the DHS Under Secretary for Management and with all the DHS 
Lines-of-Business as members, which has ultimate authority over all DHS 
programs. DHS has embarked on a tiered governance model in which 
Executive Steering Committees (ESCs) are chartered by the ARB to 
provide governance of a program or related set of programs. While not 
fully implemented across all programs, the ESC structure is chartered 
for programs rated at higher risk. Of the 88 major IT programs, my 
office (DHS Office of the Chief Information Officer or OCIO), working 
with the DHS Program Accountability and Risk Management Office (PARM), 
has identified 16 programs that would immediately benefit from the 
governance model of an ESC. I am pleased to write that all 16 of those 
programs now have the oversight of an ESC. Further, I am personally 
involved or have a senior representative from my office as a member of 
each of these ESCs.
    In addition to the tiered governance model, DHS OCIO partners with 
PARM to monitor all major programs based on monthly status reporting 
from each program. If a major IT program is showing negative indicators 
in monthly reporting, we will hold a Techstat on the program, which is 
a program review to identify the issues affecting the program along 
with a set of remediation actions to address the issues. Within the 
last 2 weeks, a Techstat on one program resulted in 11 remediation 
actions, to include the establishment of an ESC for the program.
IT Program and Technical Best Practices
    Even with a solid PMO and proper governance, it is critical that IT 
programs leverage the practices and tools that are appropriate for the 
work at hand. Using the proper methods to capture requirements, 
complete a systems design, implement a configuration management 
process, and properly test the system are just a handful of the myriad 
practices that must be implemented in a large IT program. Even a 
skilled and experienced set of individuals cannot be expected to deeply 
understand current best practices in all areas, so it can be greatly 
beneficial for programs to acquire guidance and help from subject 
matter experts in varied disciplines that cross the program, project, 
and technical disciplines.
    Within DHS, we are implementing such a model under what we call our 
Acquisition and Program Management Centers of Excellence (A&PM COEs). 
The COEs provide a number of services to programs to include: (1) 
Development or adoption of proven practices, guidance, document 
templates, and examples; (2) support program management workforce 
development through development of training programs and mentoring; (3) 
expert support (support the stand-up of new programs; support program 
reviews; and provide subject matter expertise for programs that have 
skills gaps or are struggling; (4) identification and development of 
enterprise tools to enable more effective program management; and (5) 
identification of program health criteria that recognizes what program 
success looks like.
    To date, DHS has established eight COEs to support programs, 
including COEs for program management (to include schedule and risk 
management as well as life-cycle logistics), cost estimating and 
analysis, enterprise architecture, systems engineering, requirements 
engineering, test and evaluation, privacy, and accessibility. A key to 
making this work is to draw from expertise across DHS, so individuals 
from each component can participate in their particular area of 
expertise. Through this federation, we work to create communities of 
practice bringing ideas from across DHS that strengthen the work of 
each COE. While we have made significant progress in establishing COEs, 
we continue to work on maturing our efforts, and plan to review the 
need for additional COEs in years to come.
      key dhs programs supporting border security and immigration
    The remainder of the testimony highlights a number of key IT 
programs, both in terms of how they support DHS missions in border 
security and immigration, and how we are leveraging the work outlined 
above to improve the delivery of these major IT programs.
CBP--Automated Commercial Environment (ACE)
    ACE is a multi-year program with sunk costs of $3.2 billion to 
modernize the business processes essential to securing U.S. borders, 
speeding the flow of legitimate shipments, and targeting illicit goods. 
ACE modernizes and enhances trade processes and forms the backbone for 
the ``single window'' through which the international trade community 
will electronically provide all information needed by Federal agencies 
for the import and export of cargo. The ACE program is essential to 
improving the ability of CBP's agents and officers and those of 47 
Partner Government Agencies (PGAs) to assess cargo for security, 
health, and safety risks, while speeding the flow of legitimate trade 
and ensuring compliance with U.S. trade laws.
            Cost and Schedule Performance
    In 2010, the program was placed on the Office of Management and 
Budget's (OMB) list of 26 troubled Federal IT projects. In addition, 
the DHS ARB placed ACE on a pause status while the program worked to 
address its issues. Since that time, CBP, with the support of DHS and 
OMB, has worked aggressively to turn the program around. While parts of 
ACE are in operations and maintenance, much functionality remains to be 
developed. Therefore, working with DHS, CBP has developed a plan for 
the completion of core trade processing capabilities in ACE and 
decommissioning the legacy system within approximately 3 years. A key 
component of this plan is the implementation of an agile software 
development methodology which focuses on the production of smaller 
pieces of functionality more frequently, resulting in a more flexible 
user-focused development process. CBP's plan addresses the priorities 
identified by internal system users as well as key trade community and 
PGA stakeholders: Cargo release, entry summary edits, and exports.
    With respect to the program's funding strategy, CBP has made great 
progress in reducing ACE Operations and Maintenance (O&M) costs and 
identifying internal sources of CBP funds to support remaining ACE 
development and migration.
            Challenges
    CBP has addressed a number of basic organizational and governance 
challenges as it administered the ACE program. Based on direction from 
the ARB and with DHS's support, CBP responded with program changes as 
documented in the ACE Improvement Plan submitted to OMB. Specifically, 
CBP has:
  <bullet> Established an ACE Business Office in the Office of 
        International Trade to better define business needs through an 
        enhanced business requirements process.
  <bullet> Increased stakeholder engagement through the establishment 
        of an Executive Steering Committee (ESC) that includes all 
        levels of DHS and CBP leadership.
  <bullet> Also increased engagement with all impacted CBP program 
        offices, volunteer Government field personnel serving as ACE 
        Ambassadors, the Trade Community, and Partner Government 
        Agencies.
  <bullet> Defined baseline needs through an enhanced business 
        requirements process.
  <bullet> Executed a new approach for the development of functionality 
        by building in modular components that treat each piece of 
        distinct functionality as a separate project for frequent 
        delivery of smaller segments of functionality.
  <bullet> Conducted more effective oversight of contractors through 
        greater internal controls and governance.
            Program Outlook
    CBP has taken significant steps to reposition ACE for success. 
Skills gaps in the ACE PMO were identified and are being addressed; the 
PMO is working well and has embedded business expertise. As noted 
above, the governance model has been strengthened with the addition of 
an ESC chaired by the Deputy Commissioner. Finally, the program has 
worked closely with a number of the PM COEs to ensure best practices 
are being leveraged across the program. For instance, technical 
complexity is being reduced by transitioning the program to a 
simplified architecture that relies less on a large stack of complex 
proprietary solutions and more on a few well-proven open-source 
technologies. This will greatly simplify development, and allow rapid 
integration of the solution so that it can be quickly fielded in an 
incremental fashion.
    The program is also embedding domain knowledge experts in the 
development process to help ensure frequent and timely feedback to 
developers as the solution is produced, greatly reducing requirements 
uncertainty and allowing for the program to adjust to changing 
requirements rapidly. The program is using a feature-based approach to 
manage requirements to achieve formal software releases every 6 months. 
This shorter and iterative release cycle is being mandated to ensure 
value is quickly realized by the CBP agents and officers along with 
other PGAs in the field on a regular recurring schedule.
    The strong program governance and organizational changes, active 
stakeholder engagement and support, and sound funding strategy 
demonstrate that the program is on the right course.
CBP--TECS Modernization
    TECS (no longer an acronym) is a key border enforcement system 
supporting the screening of travelers entering the United States and 
the screening requirements of other Federal agencies used for law 
enforcement and benefit purposes. TECS supports more than 70,000 users 
who represent more than 20 Federal agencies responsible for traveler 
processing, investigations, vetting, entry/exit, and research 
requirements. The TECS Modernization program is primarily focused on 
modernizing server infrastructure, databases, and user interfaces to 
sustain and improve current screening capabilities well into the 
future. The program also provides for highly scalable functionality 
that meets constantly emerging screening requirements. Some of the 
mission benefits of modernizing TECS include: Enhancing the capability 
to protect the Nation from the entry of individuals who may pose a 
threat to National security or public safety; ensuring the efficient 
flow of lawful people crossing U.S. borders; and enabling effective 
decision-making through improved information sharing.
    The modernization of the legacy TECS system is being accomplished 
through two separate programs, one within CBP and the other within ICE. 
Each is funded and being executed separately. While both modernization 
programs remain focused on continued support of each agency's unique 
mission, each program coordinates common interests regarding planning, 
development, and data migration efforts.
                     cost and schedule performance
    TECS Mod began the 8-year modernization effort in 2008, and is on 
track to complete the project in 2015 as scheduled. TECS is being 
modernized incrementally with five projects that focus on major 
functional areas. These projects are: Secondary Inspection (SI); High 
Performance Primary Query and Manifest Processing (HPPQ); Travel 
Document and Encounter Data (TDED); Lookout Record Data and Services 
(LRDS); and Primary Inspection Processes (PIP).
    Functionality, such as Secondary Inspection, has already been 
delivered and is being used successfully at ports of entry. In 2013, 
TECS Mod will deliver additional capabilities that were designed and 
developed in previous years. Operational Testing for the High 
Performance Primary Query, Travel Documents and Encounter Data, and the 
Lookout Records and Data Services Projects will begin in 2014.
                            program outlook
    Currently the TECS Modernization program is on schedule to complete 
by the end of fiscal year 2015 as detailed in the Acquisition Program 
Baseline. Some of the major accomplishments to date include:
  <bullet> LRDS Watch List Service, which provides terrorist records to 
        DHS, activated August 2010;
  <bullet> Secondary Inspection to all Air/Sea Ports Of Entry (POEs) 
        implemented May 2011 and deployed Secondary Inspection to two 
        Land ports of entry (POEs) in November 2012 for operational 
        testing;
  <bullet> High Performance Primary Query (HPPQ) Service for Advance 
        Passenger Information System activated in November 2012;
  <bullet> HPPQ Initial Operation Capability (IOC) met on February 1, 
        2013.
USCIS--Transformation
    In 2008, USCIS embarked on a program to transition the agency from 
a fragmented, paper-based operational environment to an integrated, 
paperless, electronic operational environment. The new operational 
environment, known as USCIS Electronic Immigration System (ELIS), 
enables customers to file requests for immigration benefits and USCIS 
officers to adjudicate those benefit requests within the same system. 
USCIS ELIS heavily leverages proven methods from the Government and the 
private sector to meet mission requirements for improved efficiency, 
quality, customer service, and features that support our National 
security. USCIS ELIS is a person-centric system that is already 
improving collaboration and information sharing within DHS and with 
other Federal agencies.
    USCIS launched the first release of USCIS ELIS in May 2012. This 
release delivered the foundational technology components and basic end-
to-end capabilities for applicants for certain benefit types using Form 
I-539, ``Application to Extend/Change Nonimmigrant Status.'' This 
release included capabilities for on-line account set-up, electronic 
filing, security checks, case management, direct electronic 
correspondence with customers, and issuance of notices and decisions to 
customers. Feedback on USCIS ELIS performance from USCIS staff and 
customers has been positive.
            Cost and Schedule Performance
    The USCIS Transformation, when started in 2008, used a traditional 
``waterfall'' approach to development and a single contractor as a lead 
systems integrator. The initial requirements development process took 
almost 2 years and development for the first release required an 
additional 14 months, including 7 months of testing and defect 
remediation. Although the initial release included much of the basic 
functionality to support the future development of additional benefit 
product lines, USCIS determined that such an approach was not 
sustainable in the long-term.
    After the initial release in May 2012 USCIS decided to temporarily 
reduce the size of the contractor team while it transitioned to an 
agile development process and put in place improved governance 
mechanisms, with the intention of ramping up the program up again once 
these were in place. During 2012, as the program improved its agile 
approach, the number of agile teams was increased from three to six. 
The program intends to eventually scale up to 12 agile teams of 
approximately 10 developers and testers each, in order to reach Final 
Operating Capability as quickly as possible. A Life-Cycle Cost Estimate 
(LCCE) and a roadmap have been completed for the program.
            Challenges
    The difficulties in delivering the first release prompted USCIS, in 
collaboration with the DHS OCIO, PARM, and the Federal Chief 
Information Officer (CIO) to conclude that there were fundamental 
issues in the USCIS Transformation program management structure and 
skills, the role and performance of the lead systems integrator, the 
overall governance framework, the technical architecture of the 
solution, and the development approach. Under the direction of the ARB, 
the DHS CIO's Office worked with USCIS to set up an ESC to oversee the 
program, with the DHS CIO as a voting member. DHS also participated in 
a Techstat review of the program with the Federal CIO, worked with 
USCIS to create a Life-Cycle Cost Estimate (LCCE) and an Integrated 
Master Schedule (IMS), and facilitated the program's adoption of 
technical best practices by assisting it in migrating to DHS-provided 
cloud services.
    Since late 2011, USCIS, in conjunction with my office and under the 
direction of the ARB, has taken significant steps to address each of 
its challenges, including:
  <bullet> Revamped the program management office to take on more of 
        the program's management and add needed skills.
  <bullet> Modified the role of the lead systems integrator to drive 
        improved performance.
  <bullet> Modified the governance framework to include establishment 
        of an Executive Steering Committee, chaired by the Director of 
        USCIS.
  <bullet> Create a Life-Cycle Cost Estimate (LCCE) and Integrated 
        Master Schedule (IMS).
  <bullet> Simplified the ELIS architecture to be more modular and to 
        leverage open source software to the extent possible.
  <bullet> Transitioned to modular framework, with releases delivered 
        under an agile approach.
            Program Outlook
    Since May 2012, USCIS has successfully delivered one schedule two 
additional USCIS ELIS production releases using the agile development 
approach and with all planned functionality completed. The first agile 
release was delivered in September 2012 and the second in January 2013. 
These releases provided additional enhancements to I-539 functionality 
and technology that had been delayed in order to deploy the initial 
release in May 2012. The next two agile releases are scheduled for May 
and July 2013. Each release will add a new benefit type to USCIS ELIS.
    In March 2013, USCIS completed successful development and 
modifications to the technology architecture that should better support 
agile delivery. In addition to modifying the architecture, USCIS is 
also transitioning away from a single large contract to a series of 
smaller contracts that will better support agile development and 
delivery. In May 2013, USCIS intends to begin agile development of the 
first production release under the modified architecture. After the 
modified architecture is completed, new capabilities will be released 
into USCIS ELIS approximately every 4 months. The modifications to the 
architecture and the new contracting approach should enable USCIS to 
stay within estimated costs and schedule.
ICE--Detention and Removal Operations Modernization (DROM)
    The DROM Program was initiated in late 2006 to improve the 
operational effectiveness of Enforcement and Removal Operations (ERO), 
formerly Detention and Removal Operations (DRO), and to strengthen the 
alignment of the ERO mission with the Secure Border Initiative (SBI).
    Through improved interoperability, enhanced and new capabilities, 
and an expansion of data exchange and sharing with its enforcement 
partners, DROM empowers ERO operations and field agents/officers by 
providing the technical tools necessary to execute ERO's primary 
mission of upholding U.S. immigration laws through adequate and 
appropriate custody management of detainees in a cost-effective manner. 
DROM applications produce expected business outcomes to monitor and 
support improvements such as:
  <bullet> Reduction in the length of stay for detainees.
  <bullet> Increased bed-space availability.
  <bullet> Faster document processing and transmission.
  <bullet> More accurate, complete, and flexible data reporting.
  <bullet> Elimination of data redundancy.
    With its overall primary goal of increasing the throughput of 
detainees from apprehension to case adjudication and removal, the DROM 
Program and its applications have streamlined ERO operations, resulting 
in significant cost and time savings. For example, the electronic 
Travel Documents (eTD) project has reduced the time to issue documents 
identifying a detainee's country of origin and authorizing his or her 
repatriation, from over 14 days to 8 days on average for participating 
countries (i.e., Dominican Republic, El Salvador, Guatemala, and 
Honduras). Including Mexico, participating countries account for 
approximately 90 percent of aliens repatriated.
    The electronic Online Bonds System (eBonds), which automates the 
posting of surety bonds, allows ERO field personnel to process those 
bonds within hours instead of days. The Online Detainee Locator System 
(ODLS), an application highlighted in the White House's 2011 Blueprint 
to Immigration Reform for its ingenuity in facilitating the proposed 
reforms, has significantly reduced phone inquiries to field offices 
from family members, attorneys, and other interest parties. Finally, 
Operations Management Module 2 (OM2), formerly the Fugitive Case 
Management System (FCMS), will be integrated into the ENFORCE Alien 
Removal Module (EARM) before the end of fiscal year 2013. This 
integration will improve architecture and security compliance and 
provide a robust application with a more scalable and flexible design 
and greater operational efficiencies.
            Cost and Schedule Performance
    The DROM Program and its applications are expected to reach its 
full sustainment phase by fiscal year 2014. With an adjusted life-cycle 
cost estimate of roughly $320 million DROM has achieved most of its 
major goals, moving to full sustainment ahead of schedule, and has 
produced new and enhanced capabilities that improved the operational 
effectiveness of ERO. Additionally, DROM has supported, through data 
sharing, the high-priority effort to detain and remove criminal aliens.
            Challenges
    ERO's implementation of a new series of detention reform 
initiatives in 2009 required the program to restructure its schedule 
and re-define deliverables. The overarching key objectives remain 
intact; however, the reform initiatives changed the program direction, 
producing new capabilities and terminating specific projects.
    In addition, EARM, the core module of the suite of ERO 
applications, has grown exponentially within a short period of time. 
The decision was made to use EARM as the framework and portal for all 
DROM applications with over 12 interfaces to internal and external 
Government entities. As a result of the rapid growth and re-definition, 
the build environment of EARM has become very large, making it harder 
to manage. Coding, debugging, and testing have become more complex as 
developers are required to understand the logic of the entire code base 
and the intrinsic dependencies within that logic. These challenges 
became more apparent during the test phase of releases, causing minor 
schedule shortfalls. ICE OCIO has taken the following steps to mitigate 
future potential schedule slippages related to these issues:
  <bullet> Condense schedule to allow testing to occur in parallel with 
        other activities.
  <bullet> Early involvement of ERO users to ensure that capabilities 
        meet their business needs.
  <bullet> Daily collaboration with internal stakeholders to ensure 
        faster resolution to unexpected technical issues.
  <bullet> Prioritization of capabilities for potential de-scoping 
        effort to meet schedule constraints.
    Finally, delays of EARM 3.0 release 2 and EARM 4.0 releases for 
higher-priority initiatives as the data center migration consolidation 
and the Risk Classification Assessment (RCA) module resulted in ERO 
delaying deployment of existing requirements within those packaged 
releases. In honoring those requests, some re-work and schedule 
slippage were necessary.
            Program Outlook
    Despite the technical and operational challenges, DROM is targeted 
to move into full sustainment by fiscal year 2014, providing full 
operating capabilities of the DROM applications while coming in under 
budget based on the prior year cost estimate. In addition, the final 
software release is estimated to bring down the Operations and 
Maintenance cost by integrating most functionality into the core 
module, EARM, thus reducing the need to have separate operating support 
costs for individual applications. In summary, DROM has accomplished 
its mission by streamlining and executing more cost-efficient 
operations within ERO.
                               conclusion
    The ability for an IT organization to support its mission and 
business customers is highly dependent on its ability to field new 
capabilities that are developed in partnership with those customers. At 
DHS, we are working hard to mature our ability to deliver such 
capabilities, through improving the skills of our staff to manage 
programs, through effective oversight of those programs, and through 
harnessing of best practices in how we run those programs. We continue 
to drive this maturation through harnessing good work and talent across 
DHS, and its components, increasing our ability to support the Homeland 
Security Enterprise.
    Thank you and I am pleased to address your questions.

    Mr. Duncan. Thank you so much.
    I apologize to the witnesses, but it is my understanding 
that we have been interrupted by votes. So without objection, 
the subcommittee is in recess as subject to the call. The 
Chairman of the committee will reconvene approximately 10 
minutes after the conclusion of the last vote. So with that we 
will just adjourn subject to the call of the Chairman.
    [Recess.]
    Mr. Duncan. Committee on Oversight and Management 
Efficiency will come back to order. I want to thank the 
panelists for their patience during the votes, and the 
subcommittee will reconvene now. I must inform you that they 
are talking about another round of votes maybe 3:45-ish. So we 
are going to get through as much as we can.
    So the Chairman will now recognize Mr. Powner to testify.

STATEMENT OF DAVID A. POWNER, DIRECTOR, INFORMATION TECHNOLOGY 
      MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairman Duncan, Ranking Member Barber, and 
Members of the subcommittee, we appreciate the opportunity to 
testify on the status of DHS's major IT investments that among 
other things are to better secure our borders and enforce 
immigration laws.
    Late last year we issued two key reports for the 
subcommittee that highlighted DHS improvements to its IT 
governance and the status of nearly 70 IT acquisitions. This 
afternoon I will provide an overview of DHS's IT spending and 
the importance of these investments to improve mission 
performance, the cost and schedule status of these investments, 
steps underway to improve outcomes, and recommendations moving 
forward.
    DHS spends over $5.5 billion annually on over 350 
investments. Of these, 68 are major IT acquisitions that 
comprise about $4 billion of the total spend. These 68 systems 
are essential to improving DHS missionaries like screening 
travelers and cargo entering the country, monitoring our 
borders, and sharing information to combat terrorism.
    A specific example of how these systems improve mission 
performance can be seen with the US-VISIT application. The 
portion deployed to date that includes matching fingerprints 
against an FBI database has resulted in thousands of 
individuals being denied entry and hundreds of arrests. 
Therefore, delivering on-time and within budget on these IT 
acquisitions is vitally important to securing our homeland.
    Last year we reported that 47 of the 68 acquisitions were 
meeting cost and schedule goals; 21, or 30 percent were not. 
These 21 include important acquisitions that are to improve 
cargo screening, the detention of terrorists, and the screening 
of travelers.
    The four acquisitions highlighted by Ms. Graves are 
included in our list of 21 not meeting cost and schedule goals. 
My written testimony highlights the specific reasons why each 
of these acquisitions are off-course, and these reasons include 
poor cost and schedule estimates, undisciplined requirements, 
processes, and various technical issues.
    To DHS's credit, they have several important improvement 
initiatives that I would like to highlight. But I would like to 
start by acknowledging their IT leadership, both Mr. Spires and 
Ms. Graves. Although not here today, I would like to take the 
opportunity to mention that Mr. Spires, that DHS, CIO, we have 
worked with him both while he was at IRS and now DHS. Our 
Government is fortunate to have his service.
    Turning to improved initiatives, DHS has corrective action 
plans to address their performance shortfalls, have created 
Centers of Excellence where program offices can seek 
assistance. Their new tiered governance structure follows best 
practices. These initial steps have resulted in a better IT 
acquisition performance.
    For example, OMB's IT dashboard, which provides 
transparency on the performance of about 800 major IT 
investments across the Government, shows that DHS is trending 
in the right direction. Meaning that recently they have less 
projects at risk than they have had in the past.
    However, despite this progress, DHS still has too many 
critical IT acquisitions where cost and schedule performance is 
not cutting it. Our report last year highlighted about a 
billion dollars associated with these 20 investments that are 
at risk. Therefore, several IT management practices still need 
significant improvements.
    Specifically, DHS needs to have corrective action plans for 
all projects whose cost and schedule variances are 
unacceptable. DHS needs to have IT and business executives 
partner in aggressively overseeing their IT acquisitions by 
implementing more completely their new governance process.
    DHS also needs to tackle the core root cause areas 
associated why programs are not meeting their cost and schedule 
commitments by utilizing and expanding on their Centers of 
Excellence. Also DHS needs to mature its program management 
disciplines, including areas like requirements management and 
risk management. Finally, DHS needs to approach more of these 
investments on a smaller, more manageable increment to deploy 
key functionality more quickly.
    In summary, Mr. Chairman, DHS technology acquisitions play 
a vital role in improving the security of our homeland. 
Although DHS' ability to deliver on these systems is improving, 
there are still ways to go to ensure that this annual 
investment of $4 billion is yielding the near-term return our 
country needs.
    This concludes my statement, and I would be pleased to 
respond to questions.
    [The prepared statement of Mr. Powner follows:]
                 Prepared Statement of David A. Powner
                             March 19, 2013
                             gao highlights
    Highlights of GAO-13-478T, a testimony before the Subcommittee on 
Oversight and Management Efficiency, Committee on Homeland Security, 
House of Representatives.
Why GAO Did This Study
    DHS has responsibility for the development and operation of the IT 
systems for the agencies and offices under its jurisdiction that are 
key to, among other things, securing the Nation's borders and enforcing 
immigration laws. DHS reported having 363 such IT investments. Of these 
investments, 68--with budgeted annual costs of about $4 billion--were 
under development and classified by DHS as a ``major'' investment 
requiring special management attention because of its mission 
importance.
    GAO was asked to testify on the progress DHS has made and 
challenges it faces in meeting cost and schedule commitments for its 
major IT investments, including those for Customs and Border 
Protection, Immigration and Customs Enforcement, and U.S. Citizenship 
and Immigration Services. Specifically, GAO was asked to focus on its 
September 2012 report that determined: (1) The extent to which DHS 
investments are meeting their cost and schedule commitments, (2) the 
primary causes of any commitment shortfalls, and (3) the adequacy of 
DHS's efforts to address these shortfalls and their associated causes.
What GAO Recommended
    In its report, GAO recommended that the Secretary of Homeland 
Security direct the appropriate officials to address guidance 
shortcomings and develop corrective actions for all major IT investment 
projects having cost and schedule shortfalls. In commenting on a draft 
of the report, DHS concurred with GAO's recommendations.
   information technology.--dhs needs to enhance management of major 
                              investments
What GAO Found
    Approximately two-thirds of the Department of Homeland Security's 
(DHS) major IT investments were meeting their cost and schedule 
commitments. Specifically, out of 68 major IT investments in 
development, 47 were meeting cost and schedule commitments. The 
remaining 21--which DHS had estimated to cost about $1 billion--had one 
or more subsidiary projects that were not meeting cost and/or schedule 
commitments (i.e., they exceeded their goals by at least 10 percent, 
which is the level at which the Office of Management and Budget (OMB) 
considers projects to be at increased risk of not being able to deliver 
planned capabilities on time and within budget.)
    The primary causes for the cost and schedule shortfalls were (in 
descending order of frequency):
  <bullet> inaccurate preliminary cost and schedule estimates,
  <bullet> technical issues in the development phase,
  <bullet> changes in agency priorities,
  <bullet> lack of understanding of user requirements, and
  <bullet> dependencies on other investments that had schedule 
        shortfalls.
    Eight of the investments had inaccurate cost and schedule 
estimates. For example, DHS's Critical Infrastructure Technology 
investment had a project where actual costs were about 16 percent over 
the estimated cost, due in part to project staff not fully validating 
cost estimates before proceeding with the project. In addition, six 
investments had technical issues in the development phase that caused 
cost or schedule slippages. For example, DHS's Land Border Integration 
investment had problems with wireless interference at certain sites 
during deployment of hand-held devices used for scanning license 
plates, which caused a project to be more than 2 months' late.
    DHS often did not adequately address cost and schedule shortfalls 
and their causes. GAO's investment management framework calls for 
agencies to develop and document corrective efforts to address 
underperforming investments and DHS policy requires documented 
corrective efforts when investments experience cost or schedule 
variances. Although 12 of the 21 investments with shortfalls had 
defined and documented corrective efforts, the remaining 9 had not. 
Officials responsible for 3 of the 9 investments said they took 
corrective efforts but were unable to provide plans or any other 
related documentation showing such action had been taken. Officials for 
the other 6 investments cited criteria in DHS's policy that excluded 
their investments from the requirement to document corrective efforts. 
This practice is inconsistent with the direction of OMB guidance and 
related best practices that stress developing and documenting 
corrective efforts to address problems in such circumstances. Until DHS 
addresses its guidance shortcomings and ensures each of these 
underperforming investments has defined and documented corrective 
efforts, these investments are at risk of continued cost and schedule 
shortfalls.
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, I am pleased to be here today to discuss our past work 
examining the Department of Homeland Security's (DHS) progress and 
challenges in acquiring, developing, and managing the information 
technology investments and systems used by its agencies and offices, 
including those used by U.S. Customs and Border Protection (CBP), 
Immigration and Customs Enforcement (ICE), and U.S. Citizenship and 
Immigration Services (USCIS). Since its creation in 2002, DHS has spent 
billions of dollars on IT infrastructure used to fulfill its mission to 
ensure a homeland that is safe, secure, and resilient against terrorism 
and other hazards. We recently reported \1\ that, during fiscal year 
2012, DHS planned to spend about $5.6 billion on approximately 363 on-
going IT investments. Of these 363 investments, 68 were under 
development and were classified by DHS as a ``major'' investment \2\ 
that required special management attention because of its importance to 
the Department's mission. My testimony today focuses on the key 
findings of that work, including: (1) The extent to which DHS 
investments are meeting their cost and schedule commitments, (2) the 
primary causes of any commitment shortfalls, and (3) the adequacy of 
DHS's efforts to address these shortfalls and their associated causes.
---------------------------------------------------------------------------
    \1\ GAO, Information Technology: DHS Needs to Enhance Management of 
Cost and Schedule for Major Investments, GAO-12-904 (Washington, DC: 
Sept. 2012).
    \2\ DHS defines a major IT investment as one with a cost of $50 
million or more and is complex and/or mission-critical.
---------------------------------------------------------------------------
    This statement is based on our report of September 2012. In that 
report, we discussed how each of the 68 major investments was 
performing against its cost and schedule commitments as reported by the 
Department to the Office of Management and Budget (OMB). We also 
reviewed project plans and related documentation and interviewed 
responsible DHS officials to identify the primary causes for the 
shortfalls and whether any corrective efforts had been developed and 
documented to address the shortfalls. We conducted the performance 
audit from October 2011 to September 2012 in accordance with generally 
accepted Government auditing standards. Those standards require that we 
plan and perform the audit to obtain sufficient, appropriate evidence 
to provide a reasonable basis for our findings and conclusions based on 
our audit objectives.
                               background
    DHS spends billions of dollars each year on IT investments to 
perform both mission-critical and support functions that frequently 
must be coordinated among components and external entities. Of the $5.6 
billion that DHS planned to spend on 363 IT-related investments in 
fiscal year 2012, $4.4 billion was planned for the 83 the agency 
considers to be a major investment; namely, costly, complex, and/or 
mission-critical.
    Of these 83 major IT investments, 68 are under development and were 
estimated to cost approximately $4 billion for fiscal year 2012. 
Examples of major investments under development that are being 
undertaken by DHS and its components include:
  <bullet> CBP.--The Automated Commercial Environment/International 
        Trade Data System is to incrementally replace existing cargo 
        processing technology systems with a single system for land, 
        air, rail, and sea cargo and serve as the central data 
        collection system for Federal agencies needing access to 
        international trade data in a secure, paper-free, web-enabled 
        environment.
  <bullet> ICE and CBP.--TECS Modernization is to replace the legacy 
        mainframe system developed by the U.S. Customs Service in the 
        1980s to support its inspections and investigations. Following 
        the creation of DHS, those activities were assigned to CBP and 
        ICE, respectively. CBP and ICE are now working to modernize 
        their respective portions of the system in a coordinated effort 
        with separate funding and schedules. For example, ICE's portion 
        of the investment will include modernizing the investigative 
        case management and related support modules of the legacy 
        system.
    We have previously reported on the cost and schedule challenges 
associated with major DHS IT investments, such as those with CBP's 
Secure Border Network (SBInet) and NPPD's United States Visitor and 
Immigrant Status Indicator Technology (US-VISIT).\3\ In these reports, 
we made recommendations to address these challenges and keep these 
investments on schedule and within cost.
---------------------------------------------------------------------------
    \3\ See, for example, GAO, Secure Border Initiative: SBInet 
Expenditure Plan Needs to Better Support Oversight and Accountability, 
GAO-07-309 (Washington, DC: Feb. 15, 2007); Secure Border Initiative: 
DHS Needs to Reconsider Its Proposed Investment in Key Technology 
Program, GAO-10-340 (Washington, DC: May 5, 2010); and Homeland 
Security: Key US-VISIT Components at Varying Stages of Completion, but 
Integrated and Reliable Schedule Needed, GAO-10-13 (Washington, DC: 
Nov. 19, 2009).
---------------------------------------------------------------------------
  dhs met cost and schedule commitments for most major it investments
    The success of major IT investments are judged by, among other 
things, the extent to which they deliver promised system capabilities 
and mission benefits on time and within cost. Our research in best 
practices and extensive experience working with Federal agencies and 
Office of Management and Budget (OMB) guidance stress the importance of 
Federal IT investments meeting cost and schedule milestones.
    Approximately two-thirds of DHS's IT investments met their cost and 
schedule commitments; the remaining one-third had at least one 
subsidiary project that was not meeting its commitments. Specifically, 
out of the 68 major investments under development, 47 were meeting 
their cost and schedule commitments.
    The remaining 21 investments--which totaled about $1 billion as of 
March 2012--had one or more subsidiary projects that were not meeting 
cost and/or schedule commitments (i.e., they had exceeded their goals 
by at least 10 percent, which is the level at which OMB considers 
projects to be at an increased risk of not being able to deliver 
planned capabilities on time and within budget.) Table 1 lists the 
major investments with a cost and/or schedule shortfall.
    Specifically, of the 21 investments with a shortfall, 5 had one or 
more subsidiary project with a cost shortfall, 18 had one or more 
project with a schedule shortfall, and 2 had a project with both a cost 
and schedule shortfall. These shortfalls place these investments at 
increased risk of not delivering promised capabilities on time and 
within budget, which, in turn, pose a risk to DHS's ability to fully 
meet its mission of securing the homeland. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        causes of investment cost and schedule shortfalls varied
    The primary causes of the shortfalls in cost and schedule 
associated with DHS's 21 major IT investments were (in descending order 
of frequency): Inaccurate preliminary cost and schedule estimates, 
technical issues in the development phase, changes in agency 
priorities, lack of understanding of user requirements, and 
dependencies on other investments that had schedule shortfalls. A 
summary of these causes by investment and component are shown in table 
2. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In our past work on DHS's investments and related IT management 
processes, we have identified some of these same causes and made 
recommendations to strengthen management in these areas. For example, 
with regard to cost estimating, we reported that forming a reliable 
estimate of costs provides a sound basis for measuring against actual 
cost performance and that the lack of such a basis contributes to 
variances.\4\ To help agencies establish such a capability, we issued a 
guide in March 2009 \5\ that was based on the practices of leading 
organizations. In a July 2012 report \6\ examining how well DHS is 
implementing these practices, we reported that the Department had 
weaknesses in cost estimating. Accordingly, we made recommendations to 
DHS to strengthen its cost estimating capabilities, and the Department 
has plans and efforts under way to implement our recommendations.
---------------------------------------------------------------------------
    \4\ GAO, Information Technology Cost Estimation: Agencies Need to 
Address Significant Weaknesses in Policies and Practices, GAO-12-629 
(Washington, DC: July 2012).
    \5\ GAO, GAO Cost Estimating and Assessment Guide: Best Practices 
for Developing and Managing Capital Program Costs, GAO-09-3SP 
(Washington, DC: March 2009).
    \6\ GAO-12-629.
---------------------------------------------------------------------------
    We have also reported \7\ that developing sufficient requirements 
is key to effectively delivering systems on time and within budget and 
that DHS has experienced project delays and cost overruns resulting 
from initial requirements not being defined properly. To address this 
challenge, DHS had begun, as part of defining and implementing a new IT 
governance process, to establish Centers of Excellence to provide 
investment officials with expert assistance in requirements development 
and other essential IT management disciplines.\8\
---------------------------------------------------------------------------
    \7\ GAO, Department of Homeland Security: Assessments of Selected 
Complex Acquisitions, GAO-10-588SP (Washington, DC: June 2010).
    \8\ GAO-12-818.
---------------------------------------------------------------------------
    about half of dhs's projects with shortfalls did not have well-
                      developed corrective efforts
    A variety of best practices exist to guide the successful 
acquisition of IT investments, including how to develop and document 
corrective actions for projects experiencing cost and schedule 
shortfalls. In particular, GAO's Information Technology Investment 
Management framework \9\ calls for agencies to develop and document 
corrective efforts for underperforming projects. It also states that 
agencies are to ensure that, as projects develop and costs rise, the 
project continues to meet mission needs at the expected levels of cost 
and risk; if projects are not meeting expectations or if problems have 
arisen, agencies are to quickly take steps to address the deficiencies.
---------------------------------------------------------------------------
    \9\ GAO, Information Technology Investment Management: A Framework 
for Assessing and Improving Process Maturity (version 1.1), GAO-04-394G 
(Washington, DC: March 2004).
---------------------------------------------------------------------------
    DHS developed and documented corrective efforts for 12 of the 21 
major investments with a shortfall, but the remaining 9 did not have 
corrective efforts documented. Table 3 depicts the investments with 
shortfalls and whether corrective efforts had been developed and 
documented. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    With regard to the investments with shortfalls, three were unable 
to provide us with documentation, even though project officials stated 
that they had developed some corrective efforts, and six did not engage 
in corrective efforts to address shortfalls. Of the three investments, 
officials from TSA's Federal Air Marshal Service Mission Scheduling and 
Notification System investment, for example, reported that they had 
addressed the project's schedule shortfall--which was due, in part, to 
a support contractor not having adequate staffing--by performing the 
work within the agency instead of relying on the contractor. Further, 
according to TSA officials, the cost and schedule shortfalls on the Air 
Cargo Security investment, which were due to technical complications 
and dependencies on other investments, were addressed by establishing a 
new cost and schedule baseline. Nonetheless, this lack of documentation 
is inconsistent with the direction of DHS's guidance and related best 
practices, and it shows a lack of process discipline and attention to 
key details, which raises concerns about the thoroughness of corrective 
efforts.
    Of the six investments without any corrective efforts, officials 
from these investments (namely, the Office of the Chief Information 
Officer's Human Resources IT investment, NPPD's US-VISIT Automated 
Biometric Identification System and Arrival and Departure Information 
System investments, USCG's Business Intelligence investment, NPPD's 
National Cybersecurity Protection System, and USCIS's Claims 4 
investment), stated that they did not develop and document corrective 
efforts because they believed DHS's guidance does not call for it in 
their circumstances. Specifically, the officials said that although 
DHS's guidance \10\ calls for corrective actions to be developed and 
documented when an investment experiences a life-cycle cost or schedule 
variance, the variances on their project activities thus far were not 
large enough to constitute such a variance.
---------------------------------------------------------------------------
    \10\ Department of Homeland Security, Acquisition Management 
Directive 102-01 and Capital Planning and Investment Control Guide, 
version 7.2.
---------------------------------------------------------------------------
    The impact of this approach is that multiple projects can continue 
to experience shortfalls--which increases the risk that investments 
will experience serious life-cycle cost and schedule variances--without 
having to develop and document corrective actions to alert top 
management about potential problems and associated risks. This is 
inconsistent with the direction of OMB, which requires agencies to 
report (via the IT Dashboard) on the cost and schedule performance of 
their projects and considers those projects with a 10 percent or 
greater variance to be at an increased level of risk of not being able 
to deliver promised capabilities on time and within budget, and thus 
they require special attention from management. It is also inconsistent 
with our best practices research and experience at Federal agencies, 
which stresses that agencies report to management when projects are not 
meeting expectations or when problems arise and quickly develop and 
document corrective efforts to address the problems. Further, our 
research and work at agencies has shown that waiting to act until 
significant life-cycle variances occur can sometimes be risky and 
costly, as life-cycle schedules are typically for multi-year periods, 
allowing the potential for underperforming projects to continue to vary 
from their cost and schedule goals for an extended amount of time 
without any requirement for corrective efforts. Consequently, until 
these guidance shortcomings have been addressed and each 
underperforming project has defined and documented corrective actions, 
the Department's major investments these projects support will be at an 
increased risk of cost and schedule shortfalls.
     dhs needs to address guidance and cost and schedule shortfalls
    To help ensure that DHS investments meet their cost and schedule 
commitments, we recommended that the Secretary of Homeland Security 
direct the appropriate officials to: (1) Establish guidance that 
provides for developing corrective efforts for major IT investment 
projects that are experiencing cost and schedule shortfalls of 10 
percent or greater, similar to those identified in our report, and (2) 
ensure that such major projects have defined and documented corrective 
efforts.
    DHS concurred with our recommendations and estimated that they 
would implement the first recommendation by September 30, 2013, and the 
second one immediately. We are currently in the process of following up 
with DHS to assess the extent to which these recommendations have been 
implemented.
    In summary, most of the projects comprising DHS's 68 major IT 
investments were meeting their cost and schedule commitments, but 21 
major investments--integral to DHS's mission and costing approximately 
$1 billion--had projects experiencing significant cost and schedule 
shortfalls. These shortfalls place these investments at increased risk 
of not delivering promised capabilities on time and within budget, 
which, in turn, pose a risk to DHS's ability to fully meet its mission 
of securing the homeland. DHS guidance does not require projects 
experiencing significant cost and schedule shortfalls to develop and 
document corrective efforts until they cause a life-cycle cost and 
schedule variance. This increases risk and is contrary to effective IT 
investment practices. Given that DHS is currently establishing and 
implementing new IT governance processes, the Department is positioned 
to address the guidance shortfalls.
    Chairman Duncan and Ranking Member Barber and Members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Mr. Duncan. Thank you, Mr. Powner.
    The Chairman will now recognize Inspector General Edwards 
for 5 minutes.

STATEMENT OF CHARLES K. EDWARDS, DEPUTY INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Edwards. Chairman Duncan, Ranking Member Barber, and 
Members of the subcommittee, thank you for the opportunity to 
discuss the Office of Inspector General's work to address the 
Department's IT management challenges. Today I will discuss our 
work to improve management, oversight, and efficiencies at the 
Department level, and to ensure that CBP and USCIS have 
adequate management practices and technology to effectively 
support mission needs.
    The Department relies heavily on IT, spending about $6 
billion a year for IT systems on infrastructure. Effective 
oversight and management of IT expenditures is critical. In the 
past we identified the need for the Department's chief 
information officer to have greater authority, to become a more 
effective steward of IT funds. The Department has responded by 
strengthening the CIO's role of a centralized management of IT 
and providing the CIO with authority and oversight of 
components IT investments.
    With regard to IT systems and operational efficiencies, 
component CIOs face challenges to ensure that IT environment 
fully meets mission needs. Often we find that limited 
interoperability and functionality of components, aging 
technology infrastructures hinder personnel from conducting 
activities.
    For example, in June 2012 we reported that CBP faced 
challenges with systems' availability, including periodic 
outages of critical security systems. This was due in part to 
its aging infrastructure. Furthermore, the interoperability of 
the IT infrastructure was not sufficient to support CBP mission 
activities.
    As a result, staff created workarounds or employed 
alternate solutions. In some cases CBP assigned agents to 
perform duplicative data entry instead of enforcement duties in 
the field. In other instances CBP staff operated stand-alone, 
non-approved IT. Such activities may hinder CBP's ability to 
safeguard borders and ensure officer safety. We recommended 
that CBP CIO develop a funding strategy for the replacement 
efforts of outdated IT infrastructure.
    USCIS faces similar challenges with an IT environment that 
does not effectively support its mission's operations. We 
reported in July 2009 and again in November 2011 that USCIS 
continues to rely on paper-based processes to support its 
mission.
    On any given day, USCIS processes about 30,000 applications 
for immigration benefits. Yet, USCIS provides nearly all of its 
services using paper forms. This hinders USCIS personnel from 
processing immigration benefits efficiently, combating identity 
fraud and providing partner agencies the information needed to 
identify criminals and possible terrorists.
    Although the current transformation program is meant to 
transition the agency from a paper-based system to an account-
based environment, implementation has been delayed repeatedly 
over the past 8 years. We recommended that USCIS complete 
business and technology process documentation to provide the 
detail necessary to implement the transformation program 
effectively.
    We also recommended that USCIS revise its governance 
structure to enable more streamlined decision making for its 
agency-wide IT modernization effort. In November 2011 we 
reported that although USCIS establish a transformation 
governance structure, this structure has weaknesses that have 
contributed to transformation delays.
    Transformation leadership told us the Government structure 
was too complex, that too many stakeholders and boards involved 
in making decisions. USCIS did not have the sufficient 
governance mechanism in place to ensure effective acquisition 
of IT resources. We are encouraged by the steps taken by USCIS 
to address our recommendation.
    In conclusion, our audits have identified weaknesses in IT 
management functions and widespread IT function limitation 
across the Department. Although there remain resource 
constraints that limit the Department, progress has been made 
in addressing these areas over the past few years.
    Mr. Chairman, this concludes my prepared remarks, and I 
would be happy to answer any questions that you or the Members 
may have. Thank you.
    [The prepared statement of Mr. Edwards follows:]
                Prepared Statement of Charles K. Edwards
                             March 19, 2013
    Mr. Chairman and Members of the subcommittee: Thank you for the 
opportunity to discuss DHS' information technology (IT) issues. My 
testimony today will address the predominant IT management issues we 
have reported on over the past 2 years.
    The majority of information that I will provide is contained in our 
reports, Customs and Border Protection Information Technology 
Management: Strengths and Challenges (OIG-12-95), DHS Information 
Technology Management Has Improved, But Challenges Remain (OIG-12-82), 
U.S. Citizenship and Immigration Services' Progress in Transformation 
(OIG-12-12), Coast Guard Has Taken Steps To Strengthen Information 
Technology Management, but Challenges Remain (OIG-11-108), Federal 
Emergency Management Agency Faces Challenges in Modernizing Information 
Technology (OIG-11-69), and U.S. Secret Service's Information 
Technology Modernization Effort (OIG-11-56). I will also provide an 
update on the progress made by DHS on implementing some of the report 
recommendations.
    DHS budgets over $6 billion a year for its IT. This represents 
nearly 15 percent of the DHS overall budget. The 22 component agencies 
that currently make up DHS rely extensively on IT to perform a wide 
range of mission operations, including counterterrorism, border 
security, and immigration benefits processing, among others. Given the 
size and significance of DHS' IT investments, effective management of 
Department-wide IT expenditures is critical.
                      dhs' it management oversight
    In the past, we identified the need for the Department's Chief 
Information Officer (CIO) to have greater authority to become a more 
effective steward of IT funds.\1\ The Department has since strengthened 
the CIO's responsibilities for oversight and centralized management of 
IT, which has helped provide the authority for leading component CIOs 
toward a more unified IT direction. Specifically, we reported in May 
2012 that the DHS Office of the CIO has improved oversight of IT 
programs and key IT management functions, such as acquisition and 
portfolio reviews, to improve CIO decision making.\2\ As a result, the 
DHS CIO has better visibility of Department-wide IT programs and assets 
thus enabling the CIO to identify opportunities for reducing costs and 
duplication across the Department's IT environment.
---------------------------------------------------------------------------
    \1\ Improvements Needed to DHS' Information Technology Management 
Structure (OIG-04-30, July 2004). Progress Made in Strengthening DHS 
Information Technology Management, But Challenges Remain (OIG-08-91, 
September 2008).
    \2\ DHS Information Technology Management Has Improved, But 
Challenges Remain (OIG-12-82, May 2012).
---------------------------------------------------------------------------
    In the same report, we concluded that DHS had further defined the 
CIO's authority and responsibility. For example, the DHS deputy 
secretary issued a memorandum in May 2011, which directed the CIO to 
take a greater role in the review and execution of all IT 
infrastructure investments.\3\ The expansion of DHS CIO authority was 
due in part to the Federal CIO's IT reform plan, which requires agency 
CIOs to implement initiatives to improve management of large-scale IT 
programs.\4\ Additionally, Office of Management and Budget Memorandum 
M-11-29, Chief Information Officer Authorities, states that agency CIOs 
must drive the investment review process for IT investments. To 
formalize this guidance, the DHS under secretary for management began 
an effort to update the Delegation of Authority for the DHS CIO, which 
included oversight of the Department's IT programs.
---------------------------------------------------------------------------
    \3\ DHS Deputy Secretary, Information Technology Efficiency, May 5, 
2011.
    \4\ The 25 Point Implementation Plan To Reform Federal Information 
Technology Management, December 9, 2010.
---------------------------------------------------------------------------
    The CIO has increased oversight of Department-wide IT programs and 
investments by conducting annual IT program reviews and in-depth 
reviews of selected IT programs. These reviews enable the CIO to make 
strategic recommendations for reducing costs and duplication across the 
Department's IT environment. For example, the DHS CIO issued 90 
recommendations to the deputy secretary for the 2013 budget year for 81 
IT investments continue as planned, eight investments be continued but 
modified, and one be suspended. The CIO also made program-specific 
recommendations, such as to reinstate $10 million in funding per year 
for the Customs and Border Protection (CBP) Traveler Enforcement 
Compliance System Modernization in order to prevent further schedule 
delays, as well as a recommendation that the Federal Emergency 
Management Agency (FEMA) suspend work on its National Flood Insurance 
Program Information Technology Systems and Services until business 
requirements were better defined.
    In addition, the DHS CIO has increased oversight of IT software, 
hardware, and infrastructure purchases through the IT acquisitions 
review process. The volume of IT acquisition reviews has increased from 
243 in fiscal year 2007 to 387 in fiscal year 2011. The number of 
approvals for IT acquisition requests has increased from 129 in fiscal 
year 2007 to 311 in fiscal year 2011. These reviews have increased the 
DHS CIO's ability to verify compliance with technical standards and to 
ensure program and project alignment with Department-wide IT policy, 
standards, objectives, and goals.
    The Department has also achieved infrastructure integration 
milestones through data center and network consolidation. Specifically, 
the Office of the CIO (OCIO) continues its efforts to consolidate data 
centers across the Department, integrate disparate component networks 
into a single DHS network, and create centralized email and 
collaboration services to improve information sharing. As of November 
2011, DHS headquarters, FEMA, the Transportation Security 
Administration (TSA), and CBP had migrated applications from eight 
sites to one DHS enterprise data center. Additionally, DHS has 
established an enterprise network, OneNet, as well as a primary and 
secondary network operations center and security operations center. The 
OCIO has also begun offering centralized IT services housed at the two 
enterprise data centers, such as email and Microsoft SharePoint, to 
achieve economic savings through consolidation. Some components are 
already realizing cost savings from the data center consolidation and 
DHS enterprise service offerings.
    Finally, the Department matured key IT management functions, such 
as strategic planning, Capital Planning and Investment Control (CPIC), 
enterprise architecture, and portfolio management. For example, the 
OCIO developed an IT strategic plan for fiscal year 2011-2015. In 
addition, the DHS OCIO has continued to execute its CPIC process 
effectively, which is DHS' primary process for making decisions about 
the systems in which the Department should invest. The OCIO has also 
continued to execute Department-wide enterprise architecture efforts, 
such as the development of a Homeland Security Enterprise Architecture 
and specific segment architectures, which provide the CIO with a 
foundation for making better-informed decisions. Finally, the DHS 
Portfolio Management process, which establishes portfolios based on 
DHS' mission areas and business functions, helps the OCIO to align IT 
investments with portfolios and identify redundancies or gaps. Over the 
past 2 years the DHS OCIO has begun conducting an annual portfolio 
analysis to align IT investments to its 13 existing portfolios and 
identify redundancies or gaps. At the time of our audit, the OCIO had 
aligned more than 650 IT investments with the 13 portfolios.
                            major challenges
    Although DHS has made significant progress in improving IT 
management functions, challenges remain for CIO involvement in 
component IT budget planning. For example, the DHS CIO conducts a 
review of all components' IT budgets as part of the DHS IT budget 
formulation process, which provides opportunity to confirm that 
component plans are in line with Departmental priorities. However, the 
CIO is not involved during the component IT budget planning process 
when initial planning activities are taking place. As such, the CIO IT 
budget reviews do not directly affect the amount of funding components 
receive, meaning components can obtain funding for IT investments 
regardless of the decisions made during the budget review process. For 
example, a review of one component's IT budget revealed a funding 
request for approximately $6 million to improve IT infrastructure. Yet, 
the OCIO had requested $91 million from the component for data center 
migration costs for the same budget year, highlighting a discrepancy in 
funding plans.
    To address this issue we recommended that the deputy under 
secretary for management assign the DHS CIO centralized control over 
the Department's IT budget planning process to review, guide, and 
approve IT investments. Since this recommendation was made, the DHS CIO 
has been delegated the authority to review and approve IT budgets for 
delivering and maintaining enterprise IT solutions and mission IT 
systems and services throughout the Department in coordination with the 
DHS CFO. The recommendation was closed in September 2012.
                     component-specific challenges
    Insufficient IT management practices, need for CIO IT budget 
authority, fragmented and aging IT infrastructures, and inadequate 
governance mechanisms have been long-standing issues for several DHS 
components.
Component IT Management Practices Need Improvement
    Although DHS and its components have made progress establishing 
effective IT management practices, several DHS components have not 
fully implemented key IT management functions needed to guide agency-
wide IT programs. For example, in June 2012 we reported that CBP had 
developed an enterprise architecture to align with the Department's 
architecture and guide CBP's IT environment.\5\ However, the Office of 
IT had not yet developed a target ``To-Be'' business architecture to 
analyze business processes. Without a complete view of CBP's target 
enterprise architecture, the CIO faces increased risks to efforts to 
modernize the way OIT provides support to CBP. We recommended the CBP 
OIT provide the necessary resources to complete required enterprise 
architecture activities.
---------------------------------------------------------------------------
    \5\ CBP Information Technology Management: Strengths and Challenges 
(OIG-12-95).
---------------------------------------------------------------------------
    Similarly, we reported in April 2011 that FEMA had not yet 
completed its enterprise architecture. Specifically, the agency had not 
completed efforts to document its business functions, information 
resources, and IT systems as part of its baseline enterprise 
architecture.\6\ Also, the IT architecture remained undocumented for 
many program areas and the standards on the OCIOs website were at least 
2 years out-of-date. We also determined that FEMA did not have a 
comprehensive IT strategic plan with clearly-defined goals and 
objectives or guidance for program office initiatives. Without these 
critical elements in place, FEMA is challenged to establish an 
effective approach to modernize its information technology 
infrastructure and systems. We recommended FEMA complete and implement 
an enterprise architecture and develop a comprehensive IT strategic 
plan. Each of these recommendations were closed in January 2013 when 
FEMA produced evidence of a completed baseline architecture and an 
updated IT Strategic Plan.
---------------------------------------------------------------------------
    \6\ Federal Emergency Management Agency Faces Challenges in 
Modernizing Information Technology (OIG-11-69).
---------------------------------------------------------------------------
    Likewise, we reported in March 2011 that the United States Secret 
Service (USSS) had not updated its IT Strategic Plan since 2006.\7\ As 
a result, its plan was not sufficient to address its system weaknesses 
or integrate with DHS' technology direction. For example, the plan did 
not describe how the USSS will leverage specific DHS enterprise-wide 
solutions such as DHS Consolidated Data Centers and OneNet. 
Additionally the IT Strategic Plan did not accurately reflect 
Information Integration and Transformation Program activities such as 
planned upgrades to technology platforms. We recommended that the 
deputy director, USSS create effective planning documentation.
---------------------------------------------------------------------------
    \7\ U.S. Secret Service's Information Technology Modernization 
Effort (OIG-11-56).
---------------------------------------------------------------------------
Component CIOs Need Additional Budget Authority and Oversight
    Most of the major component CIOs lack IT budget authority and 
oversight of technology spending across programs and activities within 
their agency. For example, in our June 2012 review of CBP we found that 
the CIO did not have full oversight of IT spending across all programs 
and activities within CBP.\8\ Specifically, CBP component offices 
submit IT spending requests that were processed by procurement without 
going through the CIO's IT acquisition review process, thus increasing 
the risk of security issues or enterprise alignment challenges. 
Likewise, in April 2011 we reported that FEMA's program offices and 
regional offices continue to develop IT systems independent of the OCIO 
due in part to decentralized IT budget and acquisition practices. 
Specifically, the manner in which IT programs are funded and developed 
within FEMA hindered the OCIO's efforts to establish a complete 
inventory and manage IT capital planning and investment. For example, 
during fiscal year 2010, FEMA spent $391 million for agency-wide IT 
needs, but the OCIO accounted for only 29 percent of total spending. We 
recommended the FEMA CIO establish an agency-wide IT budget planning 
process to include all FEMA program technology initiatives and 
requirements.
---------------------------------------------------------------------------
    \8\ CBP Information Technology Management: Strengths and Challenges 
(OIG-12-95).
---------------------------------------------------------------------------
    In September 2011, we reported that the United States Coast Guard 
(USCG) CIO had limited authority over IT assets and spending.\9\ 
Specifically, the CIO does not have sufficient oversight of IT spending 
by field units. Without this authority, the CIO cannot fully ensure 
that the Coast Guard IT environment is functioning effectively and 
efficiently. We recommended that Coast Guard chief of staff transition 
IT personnel and oversight of field IT spending under the CIO. 
Likewise, in our March 2011 review of USSS \10\ we determined that the 
USSS did not position its CIO with the necessary authority to review 
and approve IT investments. Specifically, the CIO was not a member of 
the director's management team and therefore does not play a 
significant role in overseeing IT systems development and acquisition 
efforts. We recommended the deputy director, USSS provide the CIO with 
agency-wide IT budget and investment review authority to ensure that IT 
initiatives and decisions support accomplishment of the USSS and 
Department-wide mission objectives.
---------------------------------------------------------------------------
    \9\ Coast Guard Has Taken Steps To Strengthen Information 
Technology Management, but Challenges Remain (OIG-11-108).
    \10\ U.S. Secret Service's Information Technology Modernization 
Effort (OIG-11-56).
---------------------------------------------------------------------------
Outdated IT Does Not Effectively Support Component's Missions
    Component CIOs are challenged to ensure that the IT environment 
fully supports its agencies mission needs. Commonly, interoperability 
and functionality of component's aging technology infrastructures have 
not been sufficient to support mission activities. For example, in June 
2012 we reported that the CBP Office of IT (OIT) faced challenges with 
system availability, including periodic outages of critical security 
systems.\11\ Systems outages have occurred in part because of aging 
infrastructure, which has not been updated as required because of 
funding reductions. In addition, the interoperability and integration 
of the IT infrastructure were not sufficient to support CBP mission 
activities fully, due to lengthy requirements-gathering and technology 
insertion processes. As a result, staff created workarounds and 
employed alternative solutions, including assigning agents to perform 
duplicative data entry--instead of enforcement duties in the field--and 
operating stand-alone, non-approved IT. We recommended the CBP CIO 
develop a funding strategy for the replacement of outdated 
infrastructure. As of February 2013, the CBP OIT was continuing to 
assess the needs across CBP to present additional requirements for 
funding consideration and prioritization against all other CBP 
priorities.
---------------------------------------------------------------------------
    \11\ CBP Information Technology Management: Strengths and 
Challenges (OIG-12-95).
---------------------------------------------------------------------------
    Also, we reported in September 2011 that Coast Guard systems and 
infrastructure did not fully meet mission needs due to aging 
infrastructure that is difficult to support, and stove-piped system 
development.\12\ Specifically, Coast Guard field personnel do not have 
sufficient network availability, the aging financial system is 
unreliable, and command center and partner agency systems are not 
sufficiently integrated. As a result, field personnel rely on 
inefficient work-arounds, such as having to enter the same information 
twice, to accomplish their mission. We recommended the Coast Guard CIO 
address the IT systems and infrastructure needs by implementing a plan 
to ensure system redundancy to meet availability requirements, 
implement a strategy to improve ease of use and availability of the 
financial systems, and ensure that new tools address requirements for 
improved integration. Since that time, the recommendation to ensure 
that new tools address requirements for improved integration was closed 
in April 2012.
---------------------------------------------------------------------------
    \12\ Coast Guard Has Taken Steps To Strengthen Information 
Technology Management, but Challenges Remain (OIG-11-108).
---------------------------------------------------------------------------
    In April 2011, we reported that FEMA's systems were not integrated, 
did not meet user requirements, and did not provide the information 
technology capabilities agency personnel and its external partners 
needed to carry out disaster response and recovery operations in a 
timely or effective manner.\13\ Specifically, limited progress had been 
made in modernizing the agency's critical mission support systems due 
to uncertainty of Department-wide consolidation plans. As a result, 
FEMA's legacy systems were not able to effectively support disaster 
response functions in a timely and effective manner. As a result, FEMA 
personnel were using paper forms and relying on manual data entry to 
process grants. These manual work-arounds may suffice during minor 
events; however, they may not sustain the increased workload and level 
of information sharing required to support major disasters. We 
recommended the FEMA CIO establish a consolidated modernization 
approach for FEMA's mission-critical IT systems, to include DHS plans 
for integrated asset management, financial, and acquisition solutions. 
As of December 2012, FEMA had included modernization plans in its 2012 
IT Strategic Operations Plan; however, the recommendation remains open 
until the OCIO develops a modernization approach for FEMA's mission-
critical IT systems.
---------------------------------------------------------------------------
    \13\ Federal Emergency Management Agency Faces Challenges in 
Modernizing Information Technology (OIG-11-69).
---------------------------------------------------------------------------
    The United States Citizenship and Immigration Services (USCIS) 
faces similar challenges to establish an IT environment that can 
effectively support its mission needs. We reported in November 2011 
that USCIS continued to rely on paper-based processes to support its 
mission, which made it difficult for USCIS to process immigration 
benefits efficiently, combat identity fraud, and provide other 
Government agencies with the information required to identify criminals 
and possible terrorists quickly.\14\ On any given day, USCIS processes 
30,000 applications for immigration benefits. Yet, USCIS provides 
nearly all of its services using paper forms: Customers submit paper 
application forms; USCIS adjudications officers determine whether an 
applicant is eligible for benefits by reviewing the paper 
documentation; and USCIS issues paper evidence of benefits. USCIS staff 
also must use automated and manual methods to conduct background checks 
on applicants. An enterprise-wide transformation program is under way 
to transition the agency from a paper-based operational environment to 
an account-based environment using electronic adjudication. However, 
implementation of the transformation has been delayed repeatedly over 
the past 8 years. We recommended that the Office of Transformation 
Coordination complete business and technology process documentation to 
provide the detail necessary to implement the transformation program 
effectively. Since that time, USCIS provided process documentation in 
July 2012 and the recommendation was closed.
---------------------------------------------------------------------------
    \14\ U.S. Citizenship and Immigration Services' Progress in 
Transformation (OIG-12-12).
---------------------------------------------------------------------------
Better IT Governance Needed for IT Modernization Efforts
    Components implementing transformation efforts are hindered by 
insufficient governance and decision-making mechanisms to effectively 
direct agency-wide transformation program activities. In our March 2011 
report, we found that the USSS did not implement an effective IT 
governance approach for its Information Integration and Transformation 
Program, which had an estimated cost of $1.5 billion.\15\ Specifically, 
the agency did not have a formal Department-level IT governance 
mechanism to provide integrated feedback and direction for the 
transformation program effort. Without a formal mechanism for 
integrated governance, the USSS reached out individually to DHS offices 
and received conflicting advice and did not sufficiently consider DHS 
enterprise-wide solutions. We recommended that the deputy director, 
USSS formalize an Executive Steering Committee and ensure that the 
Information Integration and Transformation Program is in alignment with 
the USSS and DHS strategic goals and objectives. Since that time, the 
USSS has provided updates on its ongoing efforts to implement an 
Executive Steering Committee which includes USSS Senior Management and 
DHS members from the offices of the CIO, the chief procurement officer, 
and the Acquisition, Planning, and Management Directorate.
---------------------------------------------------------------------------
    \15\ U.S. Secret Service's Information Technology Modernization 
Effort (OIG-11-56).
---------------------------------------------------------------------------
    Likewise, our April 2011 review of USCIS Transformation concluded 
that USCIS' transformation governance structure did not promote timely 
and effective decision making.\16\ Specifically, the governance 
structure was overly complex and required too many formal meetings and 
checkpoints for review, hindering decision making. We recommended that 
the chief, Office of Transformation Coordination revise its current 
governance structure to enable more streamlined program decision 
making. Since that time, USCIS has continued to revise its governance 
structure to include a Transformation Executive Steering Committee and 
a Product Management Team.
---------------------------------------------------------------------------
    \16\ U.S. Citizenship and Immigration Services' Progress in 
Transformation (OIG-12-12).
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my prepared statement. I appreciate 
your time and attention and welcome any questions from you or Members 
of the subcommittee.

    Mr. Duncan. Thank you, Mr. Edwards.
    Thanks to everyone for their testimony. I will now 
recognize myself for 5 minutes of questions.
    First thing I want to point out is in the GAO report, Mr. 
Powner. I was looking at the primary causes for cost and 
schedule shortfalls and inaccurate preliminary cost and 
schedule estimates. What attributed to that? Had they changed 
the needs? Did they not think through the whole IT process 
appropriately? I ask that question in light of going out to St. 
Elizabeths and the cost overruns there.
    Mr. Powner. A couple things. One is when you look--when we 
look at cost and schedule estimating, requirements is a big 
area. So if you look at requirements many times, as I know 
Ranking Member Barber, you mentioned about getting the user 
requirements up front with systems like SBInet. So, getting the 
requirements nailed down that definitely affects your cost and 
schedule estimate up front.
    Also, we look at the complexity where if you have 
interdependencies from other systems, and some of these 
projects have you know various components that need to work 
together. We look for critical pass and how they manage that. 
It is a very disciplined process when you look at the 
complexity involved with some of these acquisitions, Mr. 
Chairman. We find holes in that discipline when it comes to 
both the cost and schedule estimating.
    But again, requirements is key, making sure you have--
because if you don't have the requirements up front, you could 
have discipline processes. You are still going to have a poor 
estimate.
    Mr. Duncan. Well, I have never built a house, but I was a 
banker for 8\1/2\ years, and financed a lot of them, and saw a 
lot of wives and husbands make changes to the house as it was 
being built. When you change the priorities going forward in 
any kind of project you are going to run into cost overrun. So, 
you have got changes in agency priorities. Can you elaborate?
    Mr. Powner. There are--again, several of those systems, 
these are the 21 systems that were not within 10 percent of 
cost and schedule estimates. So we saw that again. This is tied 
to requirements too. There is a link to requirements. But we 
saw some of these systems.
    There was a change in priorities for the agency. So, for 
instance, when you start looking at you know a good example--I 
mean this wasn't, but if you go back to like our US-VISIT work, 
you know one time you are focused on exit and entry, you are 
focused on a biometric. Then all of a sudden we start going 
with a smaller focus.
    One of the things I would like to highlight when you look 
at these priorities is it is very important to go smaller; 
smaller increments on these projects because Mr. Edwards 
mentioned many times--many of the past problems had been they 
tried to do so much all at once. If you look at the corrective 
action plans currently in DHS's statement, there is typically 
deliverables within 12 months. So we want to see more of that 
incremental approach to things because then it is more 
manageable. Then that way we can stick to the priorities if it 
is smaller.
    Mr. Duncan. Thank you for your work on that. I am going to 
shift to yours in just a minute because the TECS system is 
something I am very, very interested in, Traveler Enforcement, 
and how we are screening the folks that are coming into this 
country, the databases we are building on each of those 
individuals, but how that information is shared between the 
front-line people that are doing visa applications or screening 
with the State and ICE and also there at the border, 
particularly airports, coming into this country.
    So, I will ask Ms. Graves, how did--or how will modernizing 
the TECS system benefit those ICE agents? How does ICE 
coordinate with the CBP in that effort?
    Ms. Graves. Well, luckily, sir, there is a joint program 
office effort that works together with ICE and CBP that looks 
at the case management aspect of the TECS Modernization, which 
is the ICE piece of equation, as well as the modernization of 
how the derogatory databases are pulled together to provide 
that data to the front-line officers for their adjudication and 
for their identification of possible entrants into the country 
that have derogatory information against them.
    Some of the modernizations that are going on in the TECS--
in the TECS Modernization program are going to provide some 
additional functionality, and particularly there are going to 
be some improvements made that are going to help with the 
efficiencies of the front-line officers. Those include the fact 
that when the primary adjudication is done that that 
affirmation is going to be packaged and passed in an automated 
fashion to the secondary adjudicator.
    That adjudicator will be able not only to have that 
immediately available, but be able to build upon that by adding 
additional datasets from the Department of Agriculture, from 
other areas that were not included in the first primary 
screening.
    So, that would streamline the process. The secondary 
adjudicator wouldn't be starting over. It also feeds directly 
into once the adjudication is made into the case management 
aspect within ICE so that if there is a derogatory finding that 
would be the--would enter into the case management process.
    Both of those systems are being modernized in an integrated 
fashion. The expectation is to exit the mainframe technology 
with both of those systems being off the mainframe technology 
in concert in 2015.
    Mr. Duncan. Yes. I have been down to Nogales to the vehicle 
crossing there and stood in the phone booth-type apparatus 
where the Customs and Border Patrol Agents are screening those 
cars and the occupants. I want to make sure, and I know you do 
as well, but that the information they have on those occupants 
as they scan their ID cards or their passports is accurate and 
we know that they have got every--every bit of information, 
even if it is derogatory towards apprehending illegals or 
terrorists or others that are coming into this country.
    I think the American people would want us to make sure that 
those Border Patrol agents have up-to-date and complete 
information on suspected terrorists that might be coming in, or 
other individuals. So I am looking forward to seeing how TECS 
Modernization goes forward. I appreciate your testimony.
    With that I will yield to Mr. Barber, the Ranking Member.
    Mr. Barber. Well, thank you, Mr. Chairman. I wanted to ask 
Ms. Graves a question related to lessons learned and how we 
might improve processes going forward.
    As you know, I noted that we, unfortunately prohibited the 
end-users or the Border Patrol agents from having impact on the 
initial SBInet effort. So, given that experience, and knowing 
that we spent a billion dollars that really didn't get us too 
far, what plans is the Department or steps the Department 
taking to include the end-users fairly early on in the future 
development of IT? Can you elaborate on what you are doing to 
change that approach?
    Ms. Graves. Yes, absolutely. I am pleased to be able to 
tell you that--I will use the ACE program as an example. We met 
last week and what we are doing in implementing the Agile 
methodology, the Agile development methodology for IT is we are 
creating user stories. The source of that user story, Mr. 
Powner spoke about requirements. But in the Agile methodology 
the requirements are actually drafted into these user stories 
that are actually developed in concert with the embedded 
operational entities that will work with the program throughout 
its development cycle.
    These users are developing along with the developers. They 
are sitting with the developer. They are talking through the 
use cases. They are testing at appropriate times when 
functionality is actually delivered. They are providing 
immediate feedback, which is continuously incorporated into the 
development cycle so that they are constantly at the table.
    There is no separation of church and state. There is no 
indication that there is going to be a quick conversation with 
a user base and then you develop over in the corner and you 
come back later on and you find that you really haven't hit the 
mark. It is a continuous process. It is continuous integration, 
continuous user stories. What they also do by having the users 
at the table is to understand how those priorities change.
    We talked about one of the things that drives cost overruns 
in the changing requirement landscape and the shift in 
priorities. With the users constantly at the table we have the 
opportunity to have the business mission side of the equation 
adjudicate what is going to be the next user story that is 
actually developed. In that case it allows us to shift or 
transfer workload accordingly, driven by the business 
imperative.
    Mr. Barber. I appreciate the steps. Hopefully they will 
ensure that we go forward with a full understanding of what the 
end-users need and can actually help us design.
    This is a question specific to one of the--Ms. Graves, for 
you, specific to one of the 21 projects that are problematic. I 
am focusing here on the National Cybersecurity Protection 
System. This committee, the overall Committee on Homeland 
Security, I know the Chairman and I am also very concerned 
about where we are going with this.
    The President issued an Executive Order recently putting 
some priority on this for DHS. But, this is one of the 21 that 
is not doing so well. What steps are being taken subsequent to 
the President's Executive Order to give priority to the 
cybersecurity IT system?
    Ms. Graves. We have an executive steering committee. As I 
spoke earlier about our tiered governance process, we have an 
executive steering committee which has actually got the 
leadership of NPPD, the component that owns that system at the 
table.
    Also, there has a lot of what I would consider to be 
stakeholder involvement from the ISPs, the internet service 
providers out in the commercial sector because that particular 
system has to be developed in concert with them. There has to 
be a full understanding of the requirements base as well as the 
expectation of what the capability is going to be at the end of 
delivery.
    So, I think what we are going through now is that ESC is 
looking at those requirements bases and they are making the 
appropriate adjustments along with the ISPs. Some of the 
conversations for the ISPs are on-going and still have to be 
concluded. So I would put for the record that we could come 
back and speak to that when that has occurred.
    Mr. Barber. You just have a few seconds left, but I just 
want to elaborate on that question as we look at sequestration 
and what is happening to the Department's budget. How are you 
going to--or how are you prioritizing projects, given what you 
are facing with sequestration?
    Ms. Graves. With sequestration the Department will 
prioritize the requirements based on the Secretary's goal 
priorities. That of course, as she has stated repeatedly in 
public forums is front-line mission. Many of those front-line 
missions are the ones that we have discussed today.
    So I have no doubt that those will be prioritized. It 
really is about the law enforcement officer on the ground and 
about fully outfitting that officer with the communications 
capability and the IT information capability in order to 
effectively do their job.
    Mr. Barber. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you.
    The Chairman now recognizes the gentleman from Big Sky 
Country, Mr. Daines, for questioning.
    [Off mike.]
    Mr. Daines. We will try this one. That is better.
    There has been a lot of discussion here about cost and 
schedule, which I completely appreciate and respect. I spent 28 
years in the private sector, in fact 12 years of a cloud 
computing company delivering projects. So I have seen it from 
both sides.
    There has been--you know the discussion has been on cost 
and on schedule, an important role certainly of the CIO of an 
organization in project management and delivery. But a project 
is still a means to a greater end. I would--as a taxpayer and 
representative of taxpayers of America, there has been 
investments made. But I want to talk to you about the return on 
that investment, assuming for a moment that we do hit projects 
on schedule and at or below budget.
    Let me talk, Ms. Graves, about the two or three best 
examples where we have really seen a return on investment for 
the taxpayer on completed projects.
    Ms. Graves. Again, I will go back to--I will start with ACE 
and then I will segue into a couple of the other programs that 
we have talked about today.
    Particularly for ACE what we have seen in terms of real 
metrics and measurable outcomes that are associated with the 
improvements that have been made in that program would include 
faster border crossings. The ACE truck manifest capability 
today provides 30 percent faster processing time. Industry cash 
savings, of course here with ACE we are dealing primarily with 
the trade community.
    So today ACE provides for monthly interest-free duty 
payments accounting for over 60 percent of all duty and fee 
payments. So that is a savings to the trade industry. Single 
window of capability for the ACE partners in trade to come into 
the system and get all of the services that are provided by the 
unified system. So, those are just a few with ACE.
    When we look at CIS transformation what we are talking 
about there is an instantaneous improvement with the ability to 
do automated benefits approaches. In the sense of the customer, 
the person asking for adjudication of either benefits or 
citizenship, it provides an automatic account setup.
    It provides an ability to take what they input into that 
automated account setup in terms of their name, date of birth, 
other personal information. That information will flow to other 
transactions that they might have with CIS in the future, which 
makes it more customer-friendly. It allows them to look up the 
status of their application. It also provides a customer 
interface that is--has been--the tires have been kicked, it is 
very user-friendly.
    CIS has proved the outcome as being positive by actually 
going back to the users that have used the new automated system 
and asking them to complete a survey. That survey has indicated 
a 94 percent positive response saying that this is much better 
than what they have had to deal with in the past.
    Mr. Daines. I am glad to hear there is metrics there. What 
was the total investment on ACE, roughly?
    Ms. Graves. I think it is about--hold on just a moment, 
sir, I might have that. If I don't, I will get it back for the 
record. But I think it is about $1.2 billion to date----
    Mr. Daines. With $1.2 billion, are you able to quantify any 
specific monetary savings for that investment?
    Ms. Graves. I don't have that information readily 
available. But I can certainly get that back for the record.
    Mr. Daines. I would appreciate just looking--and I realize 
that there may be some more qualitative kind of savings versus 
quantitative because you talk about customer satisfaction. But 
I think it is just helpful as we think about the investment 
around what is quantifiable in terms of return, you know from a 
dollar viewpoint. I would appreciate seeing that information.
    Ms. Graves. Yes, sir.
    Mr. Daines. Any other positive benefits that you maybe 
could comment on relating to the adoption of cloud computing, 
or move to that platform?
    Ms. Graves. I am smiling because this is kind of the 
wheelhouse of the OCIO. So I am very happy to talk about that.
    We have established at DHS two secure data centers, and we 
are consolidating 42 separate data centers into those. We have 
completed 18 at this point. The way that we are doing that is 
we have adopted a methodology where establishing cloud services 
and particularly platform-as-a-service, software-as-a-service 
within those two data centers so that we can migrate our 
components to those. I will give you two recent examples.
    One, we are in the midst of our enterprise consolidation of 
our email systems and we have moved four of our primary 
components onto that system at this point in time. We have 
109,000 users with approximately another 120 to go. In that 
process we have saved--we established a service that is 
essentially $7.00 a mailbox.
    That has been benchmarked against external companies that 
are providing the same type of service. But in fact, ours is 
enhanced because of the security requirements of DHS. But we 
benchmarked that against Google and against Microsoft, et 
cetera. From the posture that our components had that have 
already moved in, we have documented the savings and I can 
provide those to you in, again, in a question for the record.
    Also we have--I will give you an example of FEMA. We went 
from $24 a mailbox down to $7.00. So these are really 
quantifiable savings that we can talk about. We have 12 of 
these enterprise cloud services, each one of which has its 
story attached to it.
    Mr. Daines. Okay. I yield back.
    Mr. Duncan. Thank you.
    The Chairman will recognize Mr. Payne, from New Jersey.
    Mr. Payne. Thank you, Mr. Chairman. Good afternoon.
    Mr. Powner and Ms. Graves, I represent the 10th District in 
New Jersey, which encompasses the Port of Newark and Port of 
Elizabeth, which makes up the New York-New Jersey port system.
    So as you know--as you can imagine, I am very concerned 
about the safety of the port and whether we are doing 
everything we can to make sure that our ports have the most up-
to-date technologies and IT systems that ensures the CBP, as 
well as local law enforcement, have the tools to be able to do 
their jobs efficiently and effectively to prevent illegal and 
dangerous materials from coming into our country, all the while 
expediting the flow of commerce.
    The--a system is being developed with the goal to 
streamline port entry and for legitimate trade, but also to 
ensure our safety and our ports. Could you explain the advances 
in the ACE technology? I know you alluded to some of it this 
morning, Ms. Graves. Include how these advances will achieve 
the goal or streamline trade protecting our ports.
    Ms. Graves. Certainly. The key here is to provide a 
platform that allows us to operate in the information-sharing 
environment. It is the whole reason why DHS was warned in the 
first place, because the failure to share certain information 
may have resulted in 9/11.
    When we look across the landscape of what is being provided 
by ACE, they are pulling information from not only within DHS 
but also from cargo manifests, from the screening that gets 
done at the ports themselves. If you are familiar with NIIS, 
which is the actual screening for rad/nuclear and other 
explosive materials, that gets done at each port.
    All of that information feeds into the commercial 
environment, the automated commercial environment. What it 
allows the individual officers to do is truly develop a risk 
profile. So the more information that they have on individual 
companies with the longevity of how they have dealt with them 
in the past and the myriad of information that they have 
collected on those companies, as trade moves in and out of the 
port they have a profile of individual transactions.
    That helps them develop that risk-based approach to where 
they should spend their time, their officers' eyes on the prize 
in terms of that risk-based analysis. It allows them to develop 
a set of trusted partners, trusted shippers, and then 
concentrate on the area where there is not as much information 
or where there may be some derogatory information that would 
you know be better--time would be better spent there to try to 
prevent anything from happening.
    Mr. Payne. Okay. Where do the shortfalls in implementing 
ACE continue to exist?
    Ms. Graves. At this point in time we are in a pilot stage 
of doing the first few sprints in the Agile methodology. I 
think what this will do is it will solve some of the problems 
that we talked about at the very beginning. The ability is to 
be flexible in terms of the changing requirements.
    One of the things that I believe got ACE into trouble in 
the first place was the changing priorities of the trade 
organization, some legislative changes that required that the 
system be updated and configured in a different fashion to 
support those changing legislative requirements. In this 
methodology I believe we will be able to address those more 
effectively.
    Mr. Payne. Okay. Well I will--in the interest of time I 
will yield back.
    Mr. Duncan. Thank the gentleman for yielding back.
    The Chairman will now recognize Mr. O'Rourke from Texas.
    Mr. O'Rourke. I wanted to follow up on some of the 
questions asked and comments made about return on investment. I 
know, Mr. Powner, in your testimony you pointed to arrests made 
and entry denied as return on the investment made in I believe 
the Century program.
    What about--and Ms. Graves, you talked about in terms of 
ACE getting more efficiencies in crossings--in legitimate 
crossings. That is the subject I am really interested in, how 
we increase throughput of legitimate trade, people, and 
privately-owned vehicles at our crossings. Do you have any 
specific measures for what these investments turned into?
    Because we know in El Paso, and I think those of us who are 
interested in trade in this country understand that the more we 
get through our ports of entry, the more jobs we create here. 
There is a number that we can ascribe to that return. Can you 
do that against the investment that you have made in these 
different platforms and softwares and programs and technologies 
that have been adopted?
    Ms. Graves. Yes, we do have performance measures that are 
in place for each one of these programs. If they are 
specifically designed the way you described, I will have to go 
back and look. I can certainly do that for the record.
    But to the point of the streamlining and the reduction in 
the process time and things of that nature, as--you know as 
working in the finance arena I believe you could quantify those 
back to dollars. I will check into that.
    Mr. Powner. If I could add, the discussion about return on 
investment, we focus a lot on cost and schedule and stuff. This 
is exactly the right focus that is needed. So if you look at 
the--we spent--DHS spends $4 billion annually on 68 systems. 
CBP, ICE, and CIS, there is 32 investments about $2 billion. 
Okay, 32 investments, $2 billion; that is a lot of money for 32 
systems.
    I think the key question for DHS is those 32 systems, what 
are we getting in 2013 for a $2 billion investment in those 
three organizations? Or for these 68 systems that we spent $4 
billion on, what are we getting?
    Mr. O'Rourke. Right.
    Mr. Powner. Two-thousand thirteen. What did we get last 
year?
    So, some of the documentation goes to OMB to justify the 
investments. There is some pretty good data in there and some 
metrics that DHS provides--that I provided in my oral statement 
on the US-VISIT application. But I think one of the things is 
DHS moves towards its incremental development. It is great that 
we are going incremental, but the bottom line is if we are 
going to spend $2 billion on 32, what are we getting in 2013, 
what is the plan in 2014?
    Then there is follow up that in fact that functionality was 
delivered. Very few Federal agencies and departments--we call 
that like an integrated deployment plan or an integrated 
release plan. That would be very valuable for this committee if 
you had something like that. I think they have it by system. I 
don't think they have it for the collection of systems.
    Ms. Graves. Right----
    Mr. O'Rourke. Yes. I was also looking at the numbers 
related to ELIS or E-L-I-S. The over $700 million spent and 
processed through that system I think 16,000 applicants, and 
realized it is not fully implemented yet, but that you know 
obviously should concern all of us. I am glad that the Ranking 
Member mentioned SBInet and some of the boondoggles that DHS 
has been involved in, in the past.
    So, my question for the inspector general, or GAO, for Ms. 
Graves, is--when do you know when it is time to pull the plug 
on something and when you are not achieving that return that 
warrants additional money spent, especially in a time of tight 
budgets? Especially when we can't get enough CBP officers 
manning our ports of entry in El Paso?
    Mr. Edwards. Well, basically it is the triple constraint. 
If you have the scope and schedule and cost, and if the scope 
deviates, naturally the cost and the schedule is going to 
deviate.
    What DHS in the past has been doing was this big-bang 
approach, and not having a complete cost for the--lifetime 
costs for the systems in place. But in the last few years, with 
Rafael Borras now, the Secretary and Deputy Lute, they have not 
looked at IT just as IT, but looked--have a holistic approach.
    The IT piece and the acquisition; they want to create a 
group program called Accountability and Risk Management. Every 
IT requisition or request needs to go through this review 
board. They need to come prepared with the entire life-cycle 
cost of what it takes, and did they really meet that or not.
    So they have a good process in place. It is going to take 
some time for them to get where they need to be.
    Mr. O'Rourke. I yield back.
    Mr. Duncan. Thank you.
    Thank you. Unfortunately we do have another vote series, 
about 10 minutes left on the clock.
    So, Mr. Edwards, I thought you were going to get through 
the whole hearing without having to answer a question, but you 
got in there at the end.
    So I want to thank the witnesses for your valuable 
testimony, and the Members for their questions today. It is a 
learning process for this committee on how IT is being 
integrated for the Department. We want to see some successes 
there because it is very important to the safety and security 
of this Nation.
    Mr. Daines asked some questions that weren't answered. So 
if you could provide those in writing. The Members of the 
committee may have additional questions for the witnesses, and 
we will ask you to respond of these questions in writing.
    Without objection, the committee will be adjourned. Thank 
you.
    [Whereupon, at 3:53 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions From Chairman Jeff Duncan for Margaret H. Graves
    Question 1. What additional authorities could help the DHS CIO 
ensure border security and immigration IT programs are delivered on 
time, on budget, and meet/exceed capabilities?
    Answer. Response was not received at the time of publication.
    Question 2. What steps has DHS taken to ensure that legacy border 
and immigration IT systems can effectively share data and ``speak to 
one another''? What concerns, if any, do you have on information 
sharing between legacy systems and how might these concerns impact 
border and immigration officers in the field?
    Answer. Response was not received at the time of publication.
    Question 3. CBP's Northern Border Remote Video Surveillance System 
was delayed by 2 months. How did this affect our security along the 
Northern Border? What is the current status of the program?
    Answer. Response was not received at the time of publication.
    Question 4. The DRO Modernization effort is supposed to make 
detention and removal more efficient. What does this mean in plain 
English? Should the American people be prepared for a higher number of 
detainee releases once this effort is completed in the future?
    Answer. Response was not received at the time of publication.
    Question 5. What is the status of IT efforts associated with the 
Secure Communities program? What have been the key IT challenges as the 
program has been deployed across the Nation? Are State and local 
infrastructures capable of properly supporting the program?
    Answer. Response was not received at the time of publication.
     Question From Honorable Richard Hudson for Margaret H. Graves
    Question. We frequently read about the inability of newly-deployed 
systems to communicate with one another and their predecessors once 
deployed. What is DHS doing to ensure that systems like TECS, a system 
of records that include temporary and permanent enforcement, 
inspection, and operational records relevant to the antiterrorism and 
law enforcement mission of numerous Federal agencies, will be able to 
interface with the existing systems at DHS as well as other Federal, 
State, and local agencies?
    Answer. Response was not received at the time of publication.
      Question From Honorable Beto O'Rourke for Margaret H. Graves
    Question. Although we recognize that RFID requirements for 
passports involves addressing globally-accepted standards, I understand 
that Ready Lanes used at our ports of entry to increase inspection 
efficiencies cannot use readers to scan RFID-enabled passports. The 
passport card, the laser visa/border crossing card, and the permanent 
resident card, however, all can be scanned at out ports of entry.
    What is being done to better coordinate technology acquisition when 
used across multiple agency platforms?
    How do we best address these inefficiencies?
    How is CBP educating the public on the benefits of a U.S. passport 
card versus a regular passport book for admissions?
    Answer. Response was not received at the time of publication.
        Questions From Chairman Jeff Duncan for David A. Powner
    Question 1. What grade (A,B,C,D,F) would you give CBP, ICE, and 
USCIS in their development and implementation of major IT programs 
based on their ability to meet mission needs, cost, and schedule?
    How would you rate DHS's performance in delivering IT systems 
against other Federal agencies?
    Answer. Response was not received at the time of publication.
    Question 2. Do DHS and its components (CBP, ICE, USCIS) have a 
shared vision and strategy for its IT programs?
    If not, what impact does this have on their success?
    Answer. Response was not received at the time of publication.
    Question 3. IT management was highlighted in GAO's recently-issued 
``High-Risk List''. According to GAO, the Department still has only 
partially addressed 4 of 6 IT management outcomes. Is DHS heading in 
the right direction to fix these deficiencies?
    Why hasn't more progress been made on these outcomes?
    Answer. Response was not received at the time of publication.
       Question From Honorable Richard Hudson for David A. Powner
    Question. We frequently read about the inability of newly-deployed 
systems to communicate with one another and their predecessors once 
deployed. What is DHS doing to ensure that systems like TECS, a system 
of records that include temporary and permanent enforcement, 
inspection, and operational records relevant to the antiterrorism and 
law enforcement mission of numerous Federal agencies, will be able to 
interface with the existing systems at DHS as well as other Federal, 
State, and local agencies?
    Answer. Response was not received at the time of publication.
       Questions From Chairman Jeff Duncan for Charles K. Edwards
    Question 1. What grade (A,B,C,D,F) would you give CBP, ICE, and 
USCIS in their development and implementation of major IT programs 
based on their ability to meet mission needs, cost, and schedule?
    How would you rate DHS's performance in delivering IT systems 
against other Federal agencies?
    Answer. Response was not received at the time of publication.
    Question 2. What steps does DHS need to take to ensure IT programs 
supporting our border agents and immigration officers are efficient and 
effective moving forward?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
